<html>
<title> - REBUILDING HAITI IN THE MARTELLY ERA</title>
<body><pre>[Senate Hearing 112-71]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-71

                  REBUILDING HAITI IN THE MARTELLY ERA

=======================================================================

                            A JOINT HEARING

                               BEFORE THE

               SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE
                  CORPS, AND GLOBAL NARCOTICS AFFAIRS

                                AND THE

         SUBCOMMITTEE ON INTERNATIONAL DEVELOPMENT AND FOREIGN
                   ASSISTANCE, ECONOMIC AFFAIRS, AND
                 INTERNATIONAL ENVIRONMENTAL PROTECTION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




         Available via the World Wide Web: http://www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
67-893 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                COMMITTEE ON FOREIGN RELATIONS          

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE          
             CORPS, AND GLOBAL NARCOTICS AFFAIRS          

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            MARCO RUBIO, Florida
JIM WEBB, Virginia                   MIKE LEE, Utah
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
TOM UDALL, New Mexico                JOHNNY ISAKSON, Georgia
                                     JOHN BARRASSO, Wyoming

                         ------------          

           SUBCOMMITTEE ON INTERNATIONAL DEVELOPMENT        
           AND FOREIGN ASSISTANCE, ECONOMIC AFFAIRS,        
           AND INTERNATIONAL ENVIRONMENTAL PROTECTION        

             BENJAMIN L. CARDIN, Maryland Chairman        

ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
RICHARD J. DURBIN, Illinois          JAMES E. RISCH, Idaho
TOM UDALL, New Mexico                JAMES M. INHOFE, Oklahoma

                             (ii)          











                            C O N T E N T S

                              ----------                              
                                                                   Page

Bernadel, Maj. Joseph M., Permanent Representative of the Haitian 
  Diaspora, Interim Haiti Recovery Commission, Boynton Beach, FL.     5
    Prepared statement...........................................     7
    Responses to questions submitted for the record by Senator 
      Marco Rubio................................................    55
Cardin, Hon. Benjamin L. Cardin, U.S. Senator from Maryland, 
  opening statement..............................................     2
    Prepared statement...........................................     4
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Sassine, Georges Barau, president, Association of Haitian 
  Industries, Port-au-Prince, Haiti..............................    26
    Prepared statement...........................................    28
Shaye, Gary, Haiti Country Director, Save the Children, Port-au-
  Prince, Haiti..................................................    34
    Prepared statement...........................................    36
    Responses to questions submitted for the record by Senator 
      Marco Rubio................................................    54
Simon-Barjon, Regine, president, Biotek Solutions, Inc.; Biotek 
  Haiti S.A., Tampa, FL..........................................    12
    Prepared statement...........................................    14
    Responses to questions submitted for the record by Senator 
      Marco Rubio................................................    50

              Additional Material Submitted for the Record

Catholic Relief Services (CRS), prepared statement...............    48

                                 (iii)

  

 
                  REBUILDING HAITI IN THE MARTELLY ERA

                              ----------                              


                        THURSDAY, JUNE 23, 2011

        U.S. Senate, Subcommittee on Western Hemisphere, 
            Peace Corps, and Global Narcotics Affairs and 
            Subcommittee on International Development and 
            Foreign Assistance, Economic Affairs, and 
            International Environmental Protection, 
            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 2:20 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez and Hon. Benjamin J. Cardin (chairmen of the 
subcommittees) presiding.
    Present: Senators Menendez and Cardin.
    Also present: Representative Alcee Hastings.

           OPENING STATEMENT OF HON. ROBERT MENENDEZ,
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. This joint hearing of the Subcommittee on 
the Western Hemisphere, Peace Corps, and Global Narcotics and 
the Subcommittee on International Development and Foreign 
Assistance, Economic Affairs, and International Environmental 
Protection will come to order.
    Let me thank Senator Cardin, my friend and colleague, for 
cochairing this hearing on an issue that is of utmost 
importance in the hemisphere. By doing this together, we bring 
all of the jurisdiction to bear on a very important part of the 
agenda that we are mutually sharing in. So I appreciate his 
working with us to do it in this manner, and we will hear from 
him in just a moment.
    The challenges for the people of Haiti are daunting, but 
they are not insurmountable. When the right leadership adopts 
the right policies and with the continuing support of the 
international community, progress can be made. In the case of 
Haiti, with the recent Presidential elections behind us, that 
moment could and should be now.
    The challenge before us is one precisely of reinvigorating 
our efforts to rebuild Haiti better than it was before the 
earthquake. To the extent those efforts have been stalled by an 
unsettled political environment, by the debilitating effects of 
the cholera epidemic, and by the magnitude of the 
multidimensional challenges that need to be faced, the 
opportunity to move forward is at our disposal. It requires a 
coordinated effort that involves the Government of Haiti, the 
aid and development communities, the international donor 
community, NGO's, the Haitian diaspora, and the private sector.
    We have before us today a panel from the private sector, 
Haitian diaspora, and NGO community--a diversity of 
perspectives united in their common goal of seeing Haiti 
succeed. I am particularly encouraged by the private sector's 
interest in Haiti because only with active private sector 
involvement can we have a sustainable development in that 
country, development that demands the reforms necessary to 
encourage private investment and that brings jobs to Haiti and 
allows Haitians to earn a living, invest in their communities, 
send their children to school, and build a strong, self-
sustaining nation.
    There is perhaps no greater development challenge in the 
hemisphere than that presented by Haiti. The challenge is not 
only to remove rubble, treat and prevent cholera, provide 
durable housing, and build infrastructure. The challenge is 
also investing in the people of Haiti and in economic 
development that will eventually limit the need for 
humanitarian assistance.
    That is why I cosponsored the Haiti Economic Lift Program 
Act, the HELP Act, which was passed by Congress last year. That 
act is an example of how we can help Haiti and Haitians through 
economic incentives. The law extends the duty-free treatment of 
certain imported knit apparel articles such as those made in 
Haiti from yarns formed in the United States. Through this type 
of trade, we can provide jobs for Haitians.
    In fact, the World Economic Forum, together with the 
International Development Bank, issued a report in January of 
this year touting the role that the private sector can play in 
helping Haiti to achieve an accelerated economic trajectory. 
The report outlines opportunities for business in Haiti through 
establishment of special economic zones, fast track zones for 
commercial development.
    For these initiatives to succeed, however, Haiti needs to 
become a more business-friendly environment, meaning access to 
basic infrastructure, logistic and financial services, clear 
title to land, and an educated and skilled labor force.
    President Martelly's election represents an opportunity to 
move forward, to examine what needs to be done, and to form a 
government that can take real action. I am hopeful that 2011 
will mark the beginning of Haiti's transformation, and we look 
forward to hearing from each of you as to what we can do to 
facilitate that achievement.
    I will say, however, for the record that I am a little 
disappointed that the administration, whose witness we moved 
this hearing to accommodate, ended up canceling out on us. And 
we have every expectation--I think Senator Cardin will join me 
in that--that at some point we will hear from the 
administration in this regard.
    With that, my distinguished colleague, the chairman of the 
subcommittee, Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN,
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, let me thank Chairman Menendez for 
not just convening this joint hearing of two subcommittees on 
the Senate Foreign Relations Committee, but his extraordinary 
leadership in our hemisphere and around the world. And we thank 
you very much for this.
    This is an unusual event to have a joint subcommittee 
hearing, and we did that because we really wanted to bring all 
of the resources that we have available to deal with the 
challenges in Haiti. The responsibility of the subcommittee 
that Senator Menendez heads deals with the geographical area, 
including Haiti. The subcommittee that I chair deals with the 
tools we have available through international development 
assistance and economic support. So we want to use all those 
tools to effectively deal with the challenges we have.
    Mr. Chairman, I want to ask that my entire statement be 
made part of the record.
    I want to thank the witnesses for being here and the work 
that you do. It is critically important to us.
    I want to just make a couple of observations. Before the 
earthquake in January, Haiti was a very challenged country, one 
of the poorest in the world, and the challenges there were very 
great. Well, since the worst natural disaster in its history, 
the circumstances have gotten much, much more dire. There are 
many challenges, and we will go through some of those 
challenges. Seventy percent of the Haitians live on $2 a day or 
less. Eighty percent of those who have gotten university 
degrees from Haiti are no longer in Haiti. You got the export 
of their talent pool, and that has caused a real challenge. The 
infant mortality rate is one of the highest in the world. Mr. 
Chairman, you mentioned the HIV/AIDS rates and cholera rates, 
all very, very high. So we have a degraded infrastructure and 
you have a population that has extraordinary needs, a 
population that does not have the tools it needs, nor the 
infrastructure it needs. It presents a very, very vulnerable 
situation. And that is what we have in Haiti.
    I do want to just say on a positive note President Martelly 
offers promise for the people of Haiti with the elections.
    There is a strong diaspora. They currently make available, 
I believe it is--between $1.2 billion and $2 billion per year 
is brought back into Haiti from its diaspora which I think 
presents a real asset that we need to capture as we move 
forward.
    And then last, as you pointed out, Mr. Chairman, the key to 
me long term in Haiti is the ability to attract investors and 
entrepreneurs and businesses. And the NGO community fully 
understands that, and we need to make sure that the climate is 
right in Haiti for those types of initiatives to move forward. 
And our witnesses today I think will provide us some key points 
in moving this forward.
    The United States has already contributed $1.1 billion in 
humanitarian aid. We obviously believe that we have a moral 
responsibility to respond particularly to a country in our 
hemisphere. But we want to make sure is those funds are being 
used most effectively as possible. It is a lot of money, but as 
I said this morning to Secretary Clinton, I want to make sure 
that our aid is used effectively. It is not just that a country 
needs help. We got to make sure that the help, in fact, is 
getting to the country itself. So I would be interested, as the 
witnesses make their presentations or through the question-and-
answer period, to get your assessment as to how effective the 
U.S. aid has been, as well as the international community's 
efforts to help the people of Haiti.
    Mr. Chairman, if I might take the privileges as the cochair 
here to acknowledge Congressman Alcee Hastings who has joined 
us. You are more than welcome to either sit up here, if you 
would like, Congressman Hastings.
    Mr. Hastings. I am grateful to you.
    Senator Cardin. We are glad to offer you a place at our 
table here.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Cardin follows:]

            Prepared Statement of Senator Benjamin L. Cardin

    I want to welcome everyone to this joint subcommittee hearing 
today. A joint hearing is not something we do very often in the Foreign 
Relations Committee and I believe it illustrates how important this 
issue is to all of us as we try to effectively deal with the challenges 
we face in rebuilding Haiti, in particular, at this critical turning 
point for the country.
    In one day, we witnessed the complete devastation of Haiti. Since 
that day in January 2010, we have watched as Haiti try to recover from 
one of the worst natural disasters in history. In the 18 months since 
the earthquake, the United States, along with international relief 
organizations and other donors, has helped to feed more than 4 million 
people, remove 4 million cubic meters of rubble and vaccinated about 1 
million internally displaced persons.
    By the end of 2010, U.S. agencies had provided $1.1 billion dollars 
to meet the humanitarian needs of Haiti. Clearly, much progress has 
been made.
    And now, with the inauguration of President Martelly (pronounced 
Mar-tell-ee) last month and a peaceful transition to new political 
leadership in the country, there is new opportunity for broader 
revitalization. This is a new opportunity and Haiti truly needs to 
capitalize on this momentum to foster its own reconstruction and 
development, supported by effective, sustained, and coordinated support 
from the international community.
    And, indeed, so much more remains to be done. The long-term 
challenge is how to best assist Haiti in the true and lasting 
reconstruction of their country--beyond traditional emergency 
humanitarian assistance. And the rebuilding of Haiti has slowed and, in 
some cases, even stalled.
    For decades, Haiti has remained the least developed country in the 
hemisphere and one of the poorest in the world. Even before the 
earthquake, Haiti was faced with some daunting challenges and not able 
to meet even some of the most basic human needs of its citizens--and 
this continues.
    Today, more than 70 percent of Haitians live on less than $2 per 
day; adequate housing and infrastructure throughout the country is 
deficient; their health care services lack staff, drugs and equipment; 
jobs that offer a living wage are difficult to find; 80 percent of 
Haitians with university degrees do not live in Haiti; Haitian women 
have one of the highest maternal mortality rates in the hemisphere; 
HIV/AIDS rates are high and cholera remains a serious risk; and, their 
natural environment has been degraded.
    This is precisely why it is vital that effective humanitarian and 
development assistance continue to flow to get the country back on its 
feet. I look forward to hearing from Gary Shaye, who serves as Haiti 
Country Director for the international NGO Save the Children, but also 
as a Board Member for the Haitian NGO Coordinating Committee. Solving 
these basic development problems is essential for in rebuilding plan 
for Haiti and the effective coordination of the private NGOs, country 
donors and multilateral institutions is at the core of this success.
    But we understand that aid is not the ultimate answer. Aid was the 
right response to the disaster and aid is the right response to the 
humanitarian crisis that continues in Haiti. To build a capable state, 
much more is required. There are other kinds of support, such as new 
investment and trade policies, institutional capacity-building 
assistance and strengthening the enterprise development so that exports 
grow and everyone along the value chain is helped.
    If we embark on the same familiar road and use the same tools, 
Haiti will never realize its full potential. We therefore must begin 
exploring alternatives to create a climate in which Haitians can better 
help themselves. Haiti holds real economic potential in a number of 
sectors and it is possible for U.S. and international firms to do well 
there.
    To that end, we will hear from two private sector entrepreneurs, 
Regine Simon-Barjon and George Sassine, who will offer their experience 
from their successful business ventures in Haiti and suggestions on to 
make that replicable. I am also looking forward to ideas on how to 
encourage more private investment in-country. This is particularly 
important in the sectors which would lead to greater Haitian economic 
gains, which would best empower those who are now living in the 
greatest poverty, especially women who are often head of households. As 
we look at plans for bringing greater investment to Haiti, the ability 
of these women to generate income is of paramount importance to me.
    President Martelly seems interested in making Haiti more attractive 
for business investment and to show the international community that 
``Haiti is open for business.'' I look forward to hearing how the 
witnesses believe you can create that climate in Haiti, while also 
ensuring the benefits of development are spread to everyone.
    And, we will also hear from another essential part of this 
picture--the Haitian diaspora, which contributes an estimated $1.2 to 
$2 billion per year back to the country. With only about 10 percent of 
Haitians formally employed, the Haitian economy is dependent on these 
remittances from members of the diaspora. Today, we are joined by Maj. 
Joseph Bernadel (pronounced Burn-a-dell), the Permanent Representative 
of the Haitian Diaspora Interim Haiti Recovery Commission, the IHRC.
    A leader in the diaspora community in the United States for some 
time, we look forward to hearing his suggestions on how to better tap 
into the expertise of the diaspora, including creative strategies on 
issues, such as access to capital, enterprise development and 
investment.
    I am confident that if these strategies, along with the assistance 
and the attention of the international community are coordinated and 
wielded properly, the Government of Haiti could foster a more resilient 
society and prosperous country.
    I want to thank all of you for coming here today. I am encouraged 
and inspired by all of the people working on the ground in Haiti, who 
have been dedicated and resolute in their commitment to the 
reconstruction of this country. With all your hard work, I am 
optimistic that Haiti's best days still lie ahead. I also want to thank 
Senators Menendez, Corker, and Rubio for your interest in holding this 
hearing today.

    Senator Menendez. Thank you, Senator Cardin. And without 
objection, your full statement is in the record.
    Let me also welcome my dear friend Alee Hastings who I had 
the privilege of serving with in the House. Normally your 
sartorial splendor outshines what you are wearing today, but we 
are glad to have you with us.
    We will ask you to summarize your statements in about 5 
minutes. Your full statements will all be included in the 
record. And we will start with Major Bernadel and then move 
down the row to Mrs. Simon-Barjon, to Mr. Sassine, and Mr. 
Shaye. So we will start with you, Major.

STATEMENT OF MAJ. JOSEPH M. BERNADEL, PERMANENT REPRESENTATIVE 
  OF THE HAITIAN DIASPORA, INTERIM HAITI RECOVERY COMMISSION, 
                       BOYNTON BEACH, FL

    Mr. Bernadel. Good afternoon, Chairman Menendez and 
Chairman Cardin and Congressman Hastings and members of the 
subcommittee. It is an honor to provide this testimony on 
today's hearing, and I especially thank you for including the 
voice of Haitians and the Haitian diaspora.
    The challenges of Haiti can be likened to a family with 
nine children where there is $1,000 worth of monthly need to be 
addressed and only $100 worth of savings. This is the 
monumental challenge that Haiti's new President, Michel 
Martelly, has inherited in leading Haiti and its people to the 
next stage of post-earthquake reconstruction. He must manage 
billions of dollars in foreign and deliver on the soaring 
expectations of millions of Haitian citizens who hope for and 
reserve a better life. Importantly, he will need to tap the 
huge pool of talents of the Haiti diaspora members who are 
eager to participate in their homeland reconstruction and whom 
I represent here today.
    The reality is that President Martelly also inherited a 
country with key projects for nation-building already underway. 
The projects and the plan are the result of the collaborative 
effort of the Government of Haiti and the Interim Haiti 
Reconstruction Commission, an independent, nonpolitical body 
mandated to provide expertise and to expedite the capabilities 
of Haitian leadership for building a new and better Haiti. As a 
member of the board of the IHRC, representing the Haitian 
diaspora, I know very well how far we have come.
    The IHRC is mandated to focus on stakeholder alignment, 
information-sharing, facilitating flow of funds, project 
alignment, and monitoring progress and performance.
    Since its inception in June 2010, the IHRC has been key to 
the recovery effort. It has provided leadership for the 
efficient coordination of proposals, reconstruction projects, 
aid organizations, and donor funds to ensure the most urgent 
priorities of the Haitian people were met and the government's 
long-term goals were advanced.
    A key underlying goal is to build Haiti back better than 
before, using stricter standards to make the country more 
resilient to natural disasters. This means that the 
reconstruction process may take somewhat longer and that costs 
may increase, but the lives and safety of citizens must be 
paramount.
    Despite the difficulties inherent in recovering from a 
disaster of this magnitude, the IHRC has to date succeeded in 
facilitating 87 projects totaling $3.2 billion. The projects 
encompass the eight critical sectors of debris removal, 
housing, water and sanitation, education, health, energy, job 
creation, and capacity-building, in full alignment with 
government priorities.
    Much has been accomplished. Still much remains to be done. 
To build back a more resilient nation, key policy reforms must 
be accelerated by the Government of Haiti. This includes 
disaster planning, developing a national energy policy, 
decentralization, and clarifying land tenure and titles as a 
prelude to reconstruction.
    Initiatives implemented by the IHRC and required to attract 
investment are in place. However, much lip service is being 
paid to the Haitian entrepreneurs in the country or in the 
diaspora community as evidenced by a report that only 2 percent 
of the rebuilding and recovery contracts have been awarded to 
citizens. Despite the broad mandate of the IHRC, the commission 
does not have funds, nor does it disburse funds. It does not 
direct the Government of Haiti nor the operation of the donors 
or NGO activity. It does not duplicate existing mechanisms of 
the Government of Haiti, and it does not replace the financial 
tracking function and the responsibility of implementing 
agencies and donors or does it fund projects directly.
    Rather, the IHRC is charged with facilitating the funding 
flow by publicizing to donors all funding gaps that exist for 
IHRC-approved projects and by connecting partially funded 
project programs to entities that can disburse the funds such 
as the Haiti Reconstruction Fund, an organization that serves 
as a funding agency. The objectives of the HRF are to mobilize, 
coordinate, and allocate resources to improve basic living 
conditions in Haiti and assist in building the capacity of the 
Haitian state.
    In looking at Haiti today, I see a nation that is on a 
positive path but my optimism is guarded. The reality is that 
there are four issues that Haiti has to contend with. The 
problems that need to be resolved in Haiti will take time, but 
for the displaced and impoverished community in Haiti time is a 
luxury. Economic growth must be matched with social investment, 
namely education, job creation with livable wages that tap into 
the tremendous work ethic and talent of Haitians, or that honor 
and respect the dignity of the people. The inclusion and 
involvement of the Haitian diaspora community must be paramount 
in the reconstruction of Haiti. Specifically, there must be 
resolution in the constitutional amendment granting dual 
citizenship to the strong Haitian diaspora. I remain concerned 
that the biggest external obstacle to reconstruction remains 
the slow pace of disbursement of dollars pledged, and I also 
see the need for greater integration of NGO initiatives.
    In closing, the inauguration of a new President is a 
potential turning point for any country. For Haiti, it carries 
profound imperatives. Building on what has already been 
accomplished will speed Haiti's progress and reconstruction.
    The Nation's efforts must continue and this is not the time 
to step back. Rather, now is the time to commit with renewed 
vigor to the huge responsibility of rebuilding Haiti, not back 
to what it was, but forward to what it can be.
    Thank you.
    [The prepared statement of Mr. Bernadel follows:]

    Prepared Statement of Maj. Joseph M. Bernadel, U.S. Army (Ret.)

    Good afternoon, Chairman Menendez and Chairman Cardin, and members 
of the Subcommittee on Western Hemisphere, Peace Corps and Global 
Narcotics Affairs and Subcommittee on International Development and 
Foreign Assistance, Economic Affairs and International Environmental 
Protection. I thank you for inviting me to testify today at the hearing 
entitled entitled, ``Rebuilding Haiti in the Martelly Era.'' I am 
particularly pleased to point out that this hearing has given Haitians 
and Haitian-Americans an opportunity to speak before Congress about the 
future of Haiti.
    It is apparent to all that Haiti's new President, Michel Martelly, 
inherited a monumental task of leading Haiti and its people through the 
next stages of post-earthquake reconstruction. He faces many 
challenges, including managing billions of dollars in foreign aid and 
delivering on the soaring expectations of millions of Haitian citizens 
who hope for and deserve a better life. Importantly, he will need to 
tap the huge pool of talents of Haitian diaspora members, who are eager 
to participate in their homeland's reconstruction.
    The new President also inherited a country with key projects for 
nation-building already underway, guided by a strategic reconstruction 
plan with clearly-defined priorities. The projects and the plan are the 
result of the collaborative efforts of the Government of Haiti and the 
Interim Haiti Reconstruction Commission (IHRC), an independent, 
nonpolitical body mandated to provide expertise and to expedite the 
capabilities of Haitian leadership for building a new, better Haiti. As 
a member of the IHRC Board representing the Haitian diaspora I know 
well how far we have come.
    The IHRC is mandated to focus on stakeholder alignment, 
information-sharing, facilitating flow of funds, project alignment and 
monitoring progress and performance.
    Since its inception in June 2010, the IHRC has been key to recovery 
efforts. It has provided leadership for the efficient coordination of 
proposals, reconstruction projects, aid organizations and donor funds 
to ensure the most urgent priorities of the Haitian people were met and 
the government's long-term goals were advanced.
    A key underlying goal is to build Haiti back better than before, 
using stricter standards to make the country more resilient to natural 
disasters. This means that the reconstruction process may take longer 
and that costs may increase, but the lives and safety of citizens must 
be paramount.
    Despite the difficulties inherent in recovering from a disaster of 
this magnitude, the IHRC has, to date, succeeded in facilitating 87 
projects totaling US$3.261 billion. The projects encompass the eight 
critical sectors of debris removal, housing, water and sanitation, 
education, health, energy, job creation and capacity-building, in full 
alignment with governmental priorities.
    Much has been accomplished; still, much remains to be done. To 
build back a more resilient nation, key policy reforms must be 
accelerated by the Government of Haiti. This includes disaster 
planning, a national energy policy, decentralization, and clarifying 
land tenure and titles as a prelude to reconstruction. In my personal 
view, I also believe that addressing legal changes such as the recent 
constitutional amendment granting dual citizenship to the several-
million strong Haitian diaspora is also of great importance to Haiti's 
future.
    As Haitians look to their new President to accelerate the process 
of reconstruction, the IHRC as a tool that assists him meeting the 
challenges, providing ongoing support as he moves his national agenda 
forward. At the same time, the international community must seize the 
chance to focus its aid on empowering rather than prolonging the 
dependency of Haiti's people and institutions. Investments by the 
international community must not focus solely on economic growth, but 
also on social programs which take into account Haiti's culture and 
social realities.
              the interim haiti reconstruction commission
    After the lesson learned from the rebuilding efforts in December 
2004 Aceh Indonesia Tsunami, the Government of Haiti, in partnership 
with the United States and the international community, created the 
Interim Haiti Reconstruction Commission, to ensure that development 
work would be coordinated and realized on the ground. Established by 
decree on April 19, 2010, the IHRC was given an 18-month mandate to 
``facilitate rebuilding investment and efforts that are Haitian led, 
coordinated, effective and efficient, ensuring that the implementation 
of priorities, plans and projects are faithful to the Haiti Action 
Plan, and properly sequenced to build Haiti back better.''
    Then-Haiti Prime Minister Jean-Max Bellerive and former U.S. 
President Bill Clinton were appointed as cochairs of the IHRC, to help 
guide donor and other stakeholder investments, to help Haiti realize 
its vision for a stable and prosperous future.
    The IHRC mandate is to ``conduct strategic planning and 
coordination and implement resources from bilateral and multilateral 
donors, nongovernmental organizations, and the business sector, with 
all necessary transparency and accountability.'' The IHRC took upon the 
responsibility to ``optimize the investments and contributions of these 
entities.'' Specifically, the IHRC is charged with developing and 
refining development plans for Haiti, assessing needs and gaps and 
establishing investment priorities. The projects reviewed by the IHRC 
would align with the consistency and coordination with the Haiti Action 
Plan, which was drawn up by the Haitian Government. However, the 
solicited projects would not necessarily come from the Government of 
Haiti.
    Since its creation, the IHRC has been key to recovery efforts. It 
has provided leadership for the the efficient coordination of 
proposals, reconstruction projects, aid organizations, and donor funds, 
to ensure the most urgent priorities of the Haitian people were met and 
the government long-term goals were advanced. Given the pressing need 
to identify and make land available to relocate the displaced 
populations into shelter, the Ministry of Economy and Finance was given 
broad authority to examine applications and issue property titles 
requested by the IHRC within 15 business days. In exchange, the IHRC 
agreed to provide the relevant ministries with the international 
technical assistance necessary so that they may strengthen their 
capacities to fulfill their mandate in relation to development 
priorities and projects effectively and promptly.
    Chiefly, the mandate of the IHRC is cast in three ways:
    (1) Assessment--IHRC assesses outstanding and unfulfilled needs. In 
coordination with the Government of Haiti, NGOs, donors, and other 
coordinating mechanisms IHRC reviews projects underway and identifies 
remaining gaps. The IHRC publicizes these needs and gaps to the local 
and international community.
    (2) Review--IHRC catalogs all incoming project proposals. Ministry 
and sector experts review projects and provide feedback to IHRC. Using 
publicly available criteria the IHRC rates projects (approval, 
conditional approval, feedback, rejection) in workshops. Projects that 
have received feedback or conditional approval can be refined and 
resubmitted.
    (3) Action--The IHRC publishes results of official approval, 
conditional approval, or turn down and updates its project database. 
IHRC coordinates with the Haitian Recovery Fund and/or other funds to 
facilitate funding flows for approved projects that need funding.
    The IHRC's Performance and Accountability Office (PAO) monitors 
progress and ensures high standards are met during implementation. The 
PAO is tasked with helping to close the current gaps in Haiti's 
oversight systems and align recovery and development activities with 
leading global development practices, such as: increasing transparency, 
leveraging development successes and feedback lessons learned to 
ongoing development and recovery projects, incentivizing effective and 
ethical performance of development and recovery actors, ensuring impact 
based assessment versus merely counting outputs, proactively 
incorporating Haitian civil society feedback into the development 
process, and holding accountable actors for poor performance and 
mismanagement.
    The IHRC have identified seven principles as a guide to approving 
projects:

    (1) Build A Better Haiti--Ensure that projects not only replace 
damaged infrastructure and services but also focus on long-term 
development and transformation of society, economy, and government 
institutions.
    (2) Maintain Urgency--Favor rapid processes and decisionmaking over 
more time-consuming processes.
    (3) Coordinate Effectively--Ensure effective coordination of the 
government, donors, projects and resources for the recovery and 
development of Haiti.
    (4) Ensure Transparency--Ensure recovery and redevelopment 
activities are fully transparent to the Haitian people, the wider 
public and donors.
    (5) Maintain Integrity--Maintain the highest professional and 
ethical standards, acting with integrity at all times.
    (6) Provide Accountability--Provide robust monitoring and oversight 
over recovery resources in order to ensure accountability to the people 
and Government of Haiti.
    (7) Enhance Government Capacity--Support the building and use of 
Haitian institutions whenever possible.

    To date, as of June 15, 87 projects totaling $3.261 billion have 
been approved by the IHRC. The projects encompass the eight critical 
sectors of debris removal, housing, water and sanitation, education, 
health, energy, job creation and capacity-building, in full alignment 
with governmental priorities. In the health sector alone, 20 projects 
totaling $333 million were approved and are underway in response to the 
Interim Plan of the Ministry of Health. This includes the world-class 
hospital and medical training facility in Mirebalais being developed by 
Partners-In-Health, and dozens of clinics in outlying areas. The 
projects can be accessed on the IRHC Web site, www.cirh.ht.
    For projects less than $1 million, the Executive Director of the 
IHRC grants approval. For projects between $1-$10 million, unanimous 
approval by the Executive Committee is required. The Executive 
Committee is composed of the two cochairs only. Projects greater than 
$10 million are approved by the IHRC Board with the majority role.
    The IHRC is equally comprised of Haitian officials/civil servants 
and international partners. It is guided by a Board that includes 
Haitian and non-Haitian stakeholders in reconstruction efforts. The 
activities of the IHRC are supervised by the Executive Director, who 
manages daily operations. Although, President Clinton remains as one of 
the cochairs of the IHRC, Prime Minister Bellerive has resigned from 
the post following the inauguration of the newly elected President of 
Haiti, Michel Martelly. It is the responsibility of the cochairs to 
form the Executive Committee of the IHRC and it may act on behalf of 
the Board in between meetings. In addition, the cochairs preside at 
meetings of the Board and establish agendas for these meetings.
    The IHRC Board has 28 voting members, which must include at least:

  <bullet> 2 designated by the Executive Branch of the Haitian 
        government;
  <bullet> 2 designated by the Judicial branch;
  <bullet> 2 designated by local government authorities;
  <bullet> 1 designated by the Senate;
  <bullet> 1 designated by the Chamber of Deputies;
  <bullet> 1 designated by the labor unions;
  <bullet> 1 designated by the business community;
  <bullet> 1 representing the Caribbean Community (CARICOM);
  <bullet> 1 representing each of the bilateral and multilateral donors 
        who have pledged to contribute at least $100M for Haiti over 2 
        years or $200M dollars in debt relief;
  <bullet> 1 rotating representative designated by the other bilateral 
        and multilateral donors.

    The Board also has 4 nonvoting members, which include:

  <bullet> 1 designated by the Organizations of American States (OAS);
  <bullet> 1 designated by the community of Haitian NGOs;
  <bullet> 1 designated by the community of international NGOs;
  <bullet> 1 designated by the Haitian expatriate community.

    As with all organizations, there are some areas in need of 
improvement. For example, at the December 2010 IHRC meeting, the 
Haitian representatives on the IHRC sent a letter to the Board and 
expressed displeasure in the manner in which information was conveyed 
to them, not in a timely fashion with adequate time for review and 
comments. Most recently, in May 2011, more than 35 Haitian civil 
society organizations sent a letter to the IHRC complaining about the 
lack of consultation with grassroots organizations representing the 
people by the camps and areas affected by the earthquake.
    On May 23, 2011, President Martelly appointed Michele Oriole as an 
Observer to the IHRC. Ms. Oriole is an anthropologist with expertise in 
land tenure issues.
    What the IHRC does not do. Despite the broad mandate assigned to 
the IHRC, the Commission does not hold funds, nor does it disburse 
funds. It does not direct the Government of Haiti, nor duplicate its 
existing mechanisms, nor the operations of the donor/NGO activities, 
nor replace the financial tracking functions and responsibilities of 
implementing agencies and donors, nor fund projects directly.
    Rather, the IHRC is charged with facilitating the funding flow by 
publicizing to donors all funding gaps that exist for IHRC approved 
projects and by connecting partially funded projects/programs to 
entities that can disburse funds, such as the Haiti Reconstruction Fund 
(HRF).
    The IHRC must, as an organization, function under the aegis of 
comprehensive project review process flow, with greater coordination of 
efforts, expertise, and protocols so that all submissions are reviewed 
and evaluated fairly and in a timely fashion. To date, it can take as 
long as 9+ months for a determination. If the IHRC is to serve on an 
optimum basis, these issues must be addressed.
                  the haiti reconstruction fund (hrf)
    The Haiti Reconstruction Fund (HRF) is a partnership between the 
international community and the Government of Haiti to help finance 
post-earthquake reconstruction. It works in conjunction with IHRC.
    The Haiti Reconstruction Fund (HRF), as an organization serves as a 
funding agency. All projects funded by the HRF must have IHRC approval 
which requires as the initial step the submission of a Project Concept 
Note, developed in collaboration with one of the following HRF partner 
entities, the Inter-American Development Bank, World Bank, or United 
Nations.
    The HRF finances activities including technical assistance and 
capacity-building, infrastructure investments, delivery of basic 
services, community development, environmental protection and cleanup, 
job creation and income generation, and budget support. HRF governance 
is via a Steering Committee chaired by the Minister of Finance (GOH), 
representatives of donors contributing at least US$30 million, a 
representative of each partner entity (IDB, U.N., World Bank), a 
Representative of Trustee (IDA), and Observers (civil society, private 
sector, Diaspora, INGOs, local government).
    The objectives of the HRF are to mobilize, coordinate, and allocate 
resources to improve basic living conditions in Haiti and assist in 
building the capacity of the Haitian state and society, long term, 
consistent with Haiti's cultural traditions.
    The HRF and IHRC are collocated and work collaboratively to ensure 
that the HRF's funds are used as a source of funding to fill the 
sectoral, funding gaps, and support the IHRC' priorities, projects and 
program approval process. The HRF does not reject projects that are 
approved by the IHRC. The process established provides that the IHRC 
review and approve all projects and programs for financing by the HRF. 
The IHRC can use the HRF as a source of finance to meet strategic 
reconstruction needs determined by the IHRC that are not being fully 
financed by other sources. Also, the IHRC can request that the HRF 
prioritize specific sectors, projects or regions of the country.

  <bullet> Of the $352.3 million in funds contributed to the HRF, $335 
        million were received and the Steering Committee has made 
        cumulative funding decisions totaling US$230 million for 14 
        projects (project costs including fees). Less than 3 percent of 
        committed resources are being used to cover the administrative 
        costs of the HRF Secretariat, Trustee and Partner Entitles.
  <bullet> Out of the total US$230 million in approved recipient 
        executed grants (project costs including fees), 41 percent of 
        the funding is being channeled through the U.N. as Partner 
        Entity, 42 percent is channeled through the World Bank, and for 
        17 percent of the approved grants the IDB serves as the Partner 
        Entity.

    With regard to the governance of IHRC and HRF, there is an 
important overlap of members between the IHRC Board and the HRF 
Steering Committee. Also, the observers to HRF Steering Committee 
meetings are drawn from the IHRC Board. And I am one of them.
    Institutionally, the IHRC can be represented on the HRF Steering 
Committee through the chairperson or a designated representative. The 
HRF Secretariat can participate in IHRC Board meetings as an observer 
and resource entity.
    Operationally, the HRF can support the IHRC by helping to finance 
the Commission's operations. IHRC Board and HRF Steering Committee 
meetings are synchronized to accelerate the financing of recovery 
activities. The HRF Secretariat has been colocated with the IHRC in 
order to ensure seamless communications and coordination. Projects and 
programs that receive HRF financing will adhere to the quality, 
reporting, and other standards established by the IHRC. The hope is 
that IHRC can facilitate the work of the HRF in several ways by:

    (1) Addressing bottlenecks and expediting licenses, permits and 
land title for approved activities financed by the HRF;
    (2) Encouraging development partners to contribute to or increase 
their contribution to the HRF; and
    (3) By guiding implementing agencies and partner entities to work 
together to develop proposals that meet the strategic needs of the 
recovery.

    To qualify for funding by the Haiti Reconstruction Fund, a project/
program must have IHRC approval (which requires a Project Concept Note 
to be submitted online). The Project Concept note must be developed in 
collaboration with one of the following HRF partner entities: Inter-
American Development Bank, World Bank, or The United Nations.
    Any institution that is acceptable to a partner entity can propose 
an activity for financing. The proponent must work with one of the 
HRF's partner entities who will assist with developing and supervising 
the activity to ensure that international standards are met. Most 
important, the IHRC will need to certify that the activity is 
consistent with plans for rebuilding Haiti and endorse the proposal for 
HRF financing. It is expected that projects and programs will be 
implemented by the Government of Haiti, U.N. entities, NGOs, and the 
private sector. Activities will be implemented on the ground by the 
Government of Haiti, U.N. entities, NGOs, the private sector, and other 
institutions acceptable to a partner. At the request of the Government 
of Haiti, the World Bank is serving as Trustee of the HRF and will 
transfer resources to partner entities for reconstruction activities at 
the direction of the HRF's governing body.
                                closing
    Initiatives implemented by the IHRC and required to attract 
investments are in place. Already private sector money is flowing to 
projects targeted to job creation and sustainable development that will 
strengthen Haiti's economic foundations for the long term. From the 
construction of the Northern Industrial Park expected to generate up to 
65,000 permanent jobs, to the expansion of the Sae-A garment factory, 
to infrastructure and tourism projects, the message is clear--Haiti is 
``open for business.'' However, much lip service is being paid to the 
Haitian entrepreneurs from the country and in the diaspora given that 
very little of the available reconstruction dollars are being accessed 
by that population.
    In looking at Haiti today, I see a nation that is on a positive 
path, although my optimism is guarded. However there are a number of 
factors that have slowed the implementation of initiatives. They 
include feeble infrastructure, the need for time to build a new 
government for Haiti, the absence of a focused strategy to meet the 
needs of the most vulnerable people, the absence of rules of law, and a 
fractured social structure with lack of basic necessities for the 
majority of population saddled with a high rate of illiteracy.
    As well, endemic corruption represents a challenge that the new 
Government of Haiti will need to quickly address. The institutional 
donors will need to focus less on growth and more on social programs 
geared toward alleviating the high rate of poverty. Legal or 
administrative provisions should also be made to facilitate access to 
capital by small and medium enterprises, the traditional creator of 
jobs in any economic environment. To the task of job creation, the 
Worldwide Haitian Diaspora is well suited. Representing 83 percent of 
the professional and technical expertise available among all Haitians 
but living outside of Haiti, this diaspora has engaged in significant 
efforts to organize. Many wander why this group is not more present 
economically in the Reconstruction of Haiti. Few reports now exist on 
how many individual diaspora members or firms are actively involved in 
the reconstruction programs.
    To this same issue, there are a vast number of NGOs working in 
Haiti--hence the reason why Haiti is commonly referred to as the 
``Republic of NGOs''). They range from large recognizable names such as 
the Red Cross, Save the Children, UNICEF, along with smaller entitles, 
based for the most part in the United States, the EU, Latin America, 
Canada, and Israel, many of them operating in Haiti prior to the 
January 12, 2010 earthquake. There are gaps in support and coordination 
among all the NGOs, with the larger NGOs having the bulk of resources 
and the smaller NGOs often struggling for funding and often most able 
to maximize the impact of donor dollars on the ground.
    Efforts to date to create a complete census of NGOs and coordinate 
sharing of resources have not been realized. I see the need for greater 
integration of NGO initiatives, to preclude overlap and to maximize 
resources. Ultimately, there must be an effort by the NGO community to 
pass the baton on to the Haitian ministries and civil societies who are 
eager to take on the roles of leadership on behalf of its people. While 
Haiti can benefit from the teaching/training/guiding roles of NGOs, 
there is a real need for NGOs to render themselves obsolete.
    Yet, signs of progress across all sectors reinforce my optimism 
that this vibrant country may at least realize its potential. It is 
clear that the road ahead will not be smooth. The biggest external 
obstacle to reconstruction remains the slow pace of disbursement of 
donor pledges: To keep Haiti moving forward, funding must be disbursed 
more quickly and in closer alignment with sector priorities identified 
by the IHRC and Haitian authorities.
    The inauguration of a new President is a potential turning point 
for any country. For Haiti, it carries profound imperatives. Building 
on what has already been accomplished will speed Haiti's progress in 
reconstruction.
    The nation's efforts must continue and this is not the time to step 
back. Rather, now is the time to commit, with renewed vigor, to the 
huge responsibility of rebuilding Haiti back better than before the 
earthquake.

[Editor's note.--Attachments included by Mr. Bernadel at the end of his 
prepared statement were not reproducible in this printed hearing. They 
will be maintained in the committee's permanent record.]

    Senator Menendez. Thank you.
    Mrs. Simon-Barjon

STATEMENT OF REGINE SIMON-BARJON, PRESIDENT, BIOTEK SOLUTIONS, 
               INC.; BIOTEK HAITI S.A., TAMPA, FL

    Mrs. Simon-Barjon. Mr. Chairman Menendez, Chairman Cardin, 
and Congressman Hastings, thank you for having us. I am pleased 
to share with you and to describe my experiences of what I have 
learned and observed in working in Haiti prior to the 
earthquake and its aftermath.
    The Haitian American Chamber of Commerce in the United 
States and BioTek, my company, has always been committed to 
Haitian private sector development.
    Haiti's new government has also signaled its intention of 
leading the transition from commerce to production, including 
attracting foreign investments necessary for needed 
development. Mr. Pierre-Marie Boisson, a respected Haitian 
economist, stated, ``The real secret for removing Haiti from 
its depressing poverty-dependency trap is to induce massive 
productive investments in the economy. Attracting such 
investments is the only way to generate good jobs and revenues 
for Haitians. It's also the surest way for the State to build a 
sizable fiscal base and thus regain its capacity to play a 
meaningful role in society.''
    Entrepreneurial innovation is the engine that fuels 
economic growth and job creation. U.S. funding and resources 
dedicated to cultivating Haiti's private sector have been 
comparatively low, totaling $163 million of the $4 billion 
awarded to Haiti to date.
    Therefore, it is time to rethink U.S. development 
assistance to Haiti and it is imperative that Haiti's financial 
partners and Haitian actors themselves implement solutions that 
redress international policies that are no longer adequate, and 
that are impediments that have contributed to endemic Haitian 
economic failure.
    This strategy will save the U.S. billions of tax dollars in 
aid funding in the long run and create an economically self-
sufficient Haiti.
    To quote Dr. Auerswald of George Mason University, 
``Haiti's path to prosperity does not run though the halls of 
aid agencies, but from seed to harvest.''
    Haitians rank support for local food production among its 
top priorities.
    The USG can further support Haitian productive sectors by 
addressing specific existing indigenous potentials which have 
the ability and capacity to simultaneously impact in the 
immediate and the long term more people, as well as the Haitian 
market economy.
    The focus should be on three sectors which are 
interrelated: agriculture, energy, and lack of available 
credit.
    Let me turn your attention to agriculture.
    As of 2008, the agricultural sector accounted for 25 
percent of Haiti's GDP, a decline from 40 percent in the 1990s. 
Agriculture employs two-thirds of Haiti's workforce. Haiti 
spends 80 percent of its export earnings to import staple foods 
like rice, sugar, and poultry. Yet, Haiti has 700,000 hectares 
of unused or underutilized lands. Haiti can be growing and 
producing these products itself as it did some 20 years or so 
ago.
    The rice, sugar, and poultry sectors, which have suffered a 
loss of 831,000 farming jobs as a result of international 
policies and agreements, represent between 47 to 50 percent of 
Haiti's annual trade deficit. These sectors are the root causes 
of Haiti's poor and endemic food security.
    To this end, U.S. aid should be converted into U.S. 
investments to focus on sectors that prioritize Haiti's actual 
needs and capacities with an eye toward innovation and open 
competition and with the unequivocal end goal of Haitian 
economic self-sufficiency.
    For example, the BioTek/Darbonne sugar mill project, which 
we run, promotes the conditions needed that will catalyze 
indigenous job creation and empower the Haitian people to help 
themselves. The BioTek/Darbonne sugar mill project addresses 
long-term solutions as presented by BioTek's optimization of 
Haiti's only remaining operating sugar mill. The project will 
rehabilitate 15,000 hectares of land which will increase sugar 
cane yields, as well as farmers' incomes.
    BioTek has also taken some basic cleaning of regional 
watersheds to mitigate floods.
    The mill has a production capacity to produce 100,000 
metric tons of sugar per year and produce an estimated 12 to 15 
megawatts of renewable energy that will service both the 
region, as well as the capital of Port-au-Prince.
    The project can also create 32,000 jobs.
    The Darbonne sugar mill optimization is a prime example 
that investments not aid are the key to Haitian economic self-
sufficiency. Haiti's agro-energy potential also lies in the 
cultivation of specific agricultural species in particular 
areas from which bio-oil can be produced and at the same time 
help mitigate the devastating erosion the country is subjected 
to. Such an initiative would help in the rehabilitation of the 
country's collapsed watersheds and riverbanks.
    In addition, the potential exists for a substantial amount 
of waste to be converted into much needed compost, fertilizer, 
and energy, thus helping to decrease the dependency on foreign 
oil.
    To progress, Haiti must be an active partner of the United 
States and the international community by also assuming its own 
responsibilities. Haiti must consciously aim to change much of 
its internal political culture, as well as renegotiate existing 
bilateral policies with international partners that strain and 
impede internal domestic socioeconomic relations and negatively 
impact economic growth.
    The establishment of an enterprise fund and/or a 
development bank will facilitate access to credit and will 
boost local production in markets which will, in turn, result 
in the gradual reduction of imports, thus increasing Haiti's 
economic balance. The adoption of the CARICOM tariff average of 
38 percent is another solution which can create sustainable 
revenue streams to ensure progress long after foreign 
assistance diminishes.
    Similar approaches have also helped Eastern Europe and the 
Dominican Republic to produce thriving societies with free 
markets and political pluralism. This kind of innovative 
thinking is what Haiti needs today. Haiti needs businesses not 
programs and bureaucracy. Haitians need to see that they have a 
stake in their own future, not merely a place in line for 
handouts.
    In conclusion, policy reforms and efforts to develop 
Haitian businesses represent the essential fuel that is the 
catalyst to private sector growth. Capital and not just money 
of any sort but capital that is professionally deployed is 
critical. In 1989, the U.S. Congress recognized this was 
critical with the establishment of the Enterprise Funds to jump 
start the Polish and Hungarian private sector. Similarly, a 
Haitian development fund or an Enterprise Fund is critical to 
Haitian private sector development.
    There is an international consensus on the solutions that 
will lead to Haitian economic prosperity. Let us then engender 
the political will to move forward and to support Haitians and 
their new President's call ``Haiti is open for business.''
    Thank you.
    [The prepared statement of Mrs. Simon-Barjon follows:]

               Prepared Statement of Regine Simon-Barjon

                              introduction
    Mr. Chairman, members of the subcommittees, I am pleased to share 
and describe my experiences about what I have learned and observed in 
working in Haiti prior to the earthquake and in its aftermath. The 
Haitian-American Chamber of Commerce (U.S.) and my company, BioTek 
Solutions/BioTek Haiti SA, has always been committed to Haitian private 
sector development. I am eager to discuss solutions, models, and 
strategies which could be instrumental in today's efforts of rebuilding 
Haiti. I am also extremely gratified and happy to see that our 
collective Haitian and Haitian-American voices are being heard.
    Haitian immigrants have always constituted a very visible segment 
of American society, dating back to before independence in 1804 and in 
the years prior to the American Civil War, with Haiti contributing to 
the American Civil War efforts. Many influential early American 
settlers and black freemen, including Jean Baptist Point du Sable and 
W.E.B. du Bois, were of Haitian origin.
    The Haitian-American Chamber of Commerce, based in New York and 
Florida serves as the advocate for the overall community as well as 
resource for consumers and businesses dedicated to serving both the 
needs of our members and the economic development needs of the broader 
Haitian Community.
    Today, of the 1.6 million Haitians and Haitian-Americans who 
continue the tradition of contributing to the U.S. economically and 
socially, are the 10 percent of African-American doctors, the same for 
the 11 percent of African-American attorneys and 13 percent of African-
American engineers of Haitian origin.
    The Chamber of Commerce represents U.S., Haitian, and Haitian-
American companies of diverse interests, such as Wachovia Bank and 
Royal Caribbean Cruise lines as well as Sogexpress; Dr Kernisant's 
Preferred Health Partners, the largest, privately owned, multispecialty 
medical group in Brooklyn, NY, serves a patient population of over 
150,000 and employs 175 medical professionals with 750 supporting 
staff. Dr. Kernisant is also founder, president, and CEO of Simact, a 
Haitian-American investment consortium. Simact has invested US$11.5 
million in Haiti, including in their flagship, Le Cap Lamandou Hotel, 
which employs 100 employees from the Jacmel region. Simact remains the 
first hospitality business in Haiti to have signed a franchise 
agreement with Choice Hotels International for both Le Cap Lamandou and 
the future Belle Rive Hotel. Simact also owns a Mining company in 
partnership with Canadian company, Majescor Resources presently being 
traded on the Toronto Stock exchange. That entity alone employs 100 
people in Trou du Nord, Haiti. SME members include Galerie d'Art Nader 
and the law practice of attorney James Jean Francois.
    We must also acknowledge the many Haitian-American public service 
employees, whom though given the opportunity to earn large salaries in 
the private sector or to become business owners themselves, prefer to 
dedicate their services to the U.S. Government (USG).
    It is therefore understandable that President Clinton stated ``that 
given the right organization and support, Haiti could become a self-
sustaining and very successful country.'' \1\ Those same sentiments are 
echoed by thousands of Haitians, including Mr. Pierre-Marie Boisson, a 
respected Haitian economist and long-term advocate of Haiti's public-
private policy dialogue and the 2003 Harvard University recipient of 
Public Service Innovator for his pioneering role in Haitian 
microfinance. Mr. Boisson stated ``Haiti is a land of opportunity, if 
only its citizens want to believe in it and start building their own 
future. The real secret for removing Haiti from its depressing poverty-
dependency trap is to induce massive productive investments in the 
economy. Attracting such investments is the only way to generate good 
jobs and revenue for Haitians. It's the surest way for the State to 
build a sizable fiscal base and thus regain its capacity to play a 
meaningful role in society.''
---------------------------------------------------------------------------
    \1\ Bill Clinton, ``What Haiti Needs,'' Time, Jan. 14, 2010. 
www.time.com/.../0,28804,1953379_
1953494_1953521,00.html.
---------------------------------------------------------------------------
    Mr. Joel Ducasse, President of Haitian Solidarity SA, a 
reforestation and biomass energy company believes that recent U.S. 
policy innovations present an improvement over the past, ``The USG has 
made significant strides in the past 3 years in trying to reverse bad 
economic policies [in Haiti] with a number of initiatives, by linking 
the rural sector to Haitian economic sustainability and by encouraging 
the `private sector' to invest in production instead of imports or 
speculative activities; By bringing loans guarantees to would-be 
investors; Efforts have been made to channel diaspora money into 
productive activities; And, the introduction of Mobile Banking provides 
an important tool to credit and banking to +80 percent of the 
population who would otherwise not benefit from access to credit and 
banking at all.''
                impediments to haitian economic progress
    Haiti's status quo has been ineffectual for 200 years. Haiti's 
history of mismanagement and strife has resulted in a poverty rate that 
climbs over 80 percent, continued reliance on diaspora remittances, 
which represented between 23 and 30 percent of Haiti's gross domestic 
product (GDP) in 2010; in addition to Official Development Assistance 
(ODA) which also accounts for some 10 percent of GDP); \2\--While the 
land is over 98 percent deforested and the topsoil washes away to the 
sea. These ongoing conditions have created unprecedented erosion and 
challenges to sustainable agriculture--which in turn has lead to the 
massive urbanization of the capital, Port-au-Prince as well as an 
overreliance on imports.
---------------------------------------------------------------------------
    \2\ Johanna Mendelson Forman, 2011. Center for Strategic and 
International Studies.
---------------------------------------------------------------------------
    Additional economic constrictions, as presented by SAJ Group SA 
CEO, Mr. Steeve Khawly, who imports various commodities, include:
          1. Security, justice and the rule of law must be addressed;
          2. Lack of available funding/capital or an institution 
        offering loans with better rates, conditions and adequate grace 
        periods;
          Loans and affordable credit rates to both SMEs and large 
        impact sector companies: i.e., garment industry, agriculture, 
        energy, mortgages, construction and tourism industries;
          3. Consistent dumping of goods into Haiti which undermines 
        local agricultural and other production;
          4. Lack of infrastructure, such as Ports, Airports, Road(s) 
        and maintenance;
          5. High tariff duties and various Port charges in Haiti vs. 
        that of other CARICOM countries, especially in comparison to DR 
        tariffs;
          6. Lack of community building and development.
Haiti's three challenging sectors
    Three (3) sectors exacerbate Haitian developmental progress: 
agriculture, energy and lack of available credit.
    All of these factors are interrelated and must be addressed to 
redress Haitian economic decline and to significantly reduce 
international aid dependency. The priorities of the United States, the 
International Community, the Government of Haiti (GOH) and the Haitian 
private sector must be to establish food and energy security and 
greater access to credit/financing--both for Haiti's own internal 
socioeconomic and political stability and to attract foreign investors. 
Thus far, the Haitian business classes or Haiti's elites have gained 
wealth chiefly through commerce, but have failed to invest meaningfully 
in production enterprise. The new GOH must be able to encourage and 
lead this transition from commerce to production, including foreign 
investment.
    The USG has been consistently supportive of Haitian productive 
sectors, such as the garment and apparel sectors with the HOPE 
legislations. The USG has also been fairly consistent and proactive in 
regards to Haitian environmental protection, such as USAID (United 
States Agency for International Development) Winner's irrigation 
programs with the Arcahaie and Ennery watersheds. USG inconsistency 
lies mainly in failing to link existing indigenous potentials which 
have the ability and capacity to simultaneously impact in the immediate 
and the long term more people, as well as the Haitian market economy.
    An example is the recent U.S. Supplemental US$1.2 Billion Fund (one 
of the best Haiti fund packages to date) is the categorically ignored 
and bypassed province of Leogane, which was 90 percent destroyed during 
the January 2010 earthquake and hosts Haiti's only remaining and 
operating sugar mill. The Plaine de Leogane also supports over 100 
alcohol and rum distilleries dependent on sugar cane cultivation/
production and thousands of farmers. The sugar cane industry IS a large 
Impact Sector.
Agriculture
    The USG has been promoting agriculture in Haiti for the past 15 
years with limited success, despite large investments in this sector. 
This sector's lack of success is due in part to USG reluctance if not 
refusal to address Haiti's Major Agricultural Impact Sectors. As of 
2008, the agricultural sector accounts for 25 percent of Haiti's GDP, a 
decline from 40 percent in the 1990s.
    Agriculture employs two-thirds of Haiti's workforce.\3\ Haiti 
spends 80 percent of its export earnings to import staple foods like 
rice and sugar and poultry. Yet, Haiti has 700,000 hectares (ha) of 
unused and/or underutilized lands. Haiti can be growing and producing 
these products itself as it did some 20 years ago.
---------------------------------------------------------------------------
    \3\ Inter-American Development Bank (IADB) 2009.
---------------------------------------------------------------------------
    These 3 products/sectors have suffered the direct loss of 831,000 
agricultural farming jobs as a result of World Trade Organization (WTO) 
and CARICOM trade policies represent between 47 to 50 percent of 
Haiti's annual trade deficit.
    Ongoing challenges impeding general and agricultural development 
include the facts that only 1 in 10 Haitian farmers having access to 
adequate seed stock, irrigation, or fertilizers; and only 4 percent of 
rural households--generally farmers--have savings accounts, and only 11 
percent report receiving credit.
    Lack of investment and credit in Haiti's Major Economic Impact 
sectors (rice, sugar, and poultry) contribute to the root causes of 
Haiti's poor and endemic food security.
    According to Mrs. Johanna Medelson Forman of the Center for 
Strategic and International Studies ``Agriculture is a good place to 
start given its importance to the Haitian economy'' to revitalize 
Haiti's economy. Mrs. Mendelson Forman cited the example of the Coca-
Cola Company which was designed to diversify supplies for the Odwalla 
beverage. The initiative Mango Tango will serve as a much-needed 
catalyst for related infrastructure projects and investment deals.
    For example, TechnoServe will provide technical assistance to grow 
the crops more efficiently. Coca-Cola is working with the U.S. Agency 
for International Development (USAID), the Inter-American Development 
Bank (IDB), the Clinton Bush Haiti Fund, and local and international 
actors to provide the financial underpinning for the project.'' \4\
---------------------------------------------------------------------------
    \4\ Johanna Mendelson Forman, Hardin Lang, Center for Strategic and 
International Studies.
---------------------------------------------------------------------------
    Coca-Cola's example clearly shows the potential to optimize Haiti's 
agricultural sector, but unlike Coca-Cola which can internally finance 
such a program and has the resources to access international funding 
institutions--many of Haiti's SMEs and its farmers do not have such 
credit nor readily available access to either local or international 
funding.
Agricultural revitalization and solutions
    We have sought to present multiple solutions to Haiti's Major 
Challenges using indigenous products and/or assets. This strategy 
invites (a) local entrepreneurship at a lower financial [start-up] 
cost; (b) reduces the amount of international aid necessary for program 
implementation; (c) creates jobs; and (d) contributes toward Haitian 
economic self-sufficiency. The primary challenges and solutions to be 
adopted to ensure adequate Haitian food production and security are 
(the below):
1. Irrigation
2. Seed banks and nurseries or agricultural research and development 
        centers for the distribution of viable and disease resistant 
        seed stocks
3. Application of fertilizer to ensure viable cultivation/production 
        output or harvests
    The primary challenges and solutions to be adopted to ensure 
adequate Haitian food production and security (shown above) are being 
met in part by the Inter-American Development bank (IADB) with the 
revitalization of seven of Haiti's main watersheds. These programs will 
complement and optimize Haitian agriculture. These important components 
will mitigate erosion; reduce flood risks, loss of life, property and 
livestock as well as increase farmers' production yields and therefore, 
revenues.
    Capacity-building via the establishment of agroindustrial 
partnerships will positively impact the environment and the market 
economy. As a result, farmers will be more encouraged to cultivate/
produce for the larger public, beyond their villages. In addition, the 
riverbanks can be cultivated/planted with dual-purpose value-added 
crops (such as moringa, vertiver, and jatropha) for soil conservation 
and to mitigate erosion as well as the production of bio-oils.
    This multipurpose approach will serve to contribute to job 
creation, the establishment of a local ``village based'' energy 
production base which will provide affordable/accessible energy 
resulting in reducing the use of charcoal which represents 16 percent 
of peasant revenues.
    Addressing the irrigation and environmental issues by making use of 
alternative energy source geared toward Community Development and a 
Sharing Concept creates strong vested agroindustrial partnerships 
[between farmers and processors/industrialists]. The strategy to 
cultivate/plant designated crops along Haiti's riverbanks eliminates 
land tenure contentions and can be implemented immediately.
Agricultural research and development centers
    The United States and the international community can support local 
Haitian Universities and Agricultural Research and Development 
Centers--of which there are only 20 ill-equipped operating with nearly 
nonexisting funding in Haiti. Another option would be to gear funds to 
NGOs with Haitian partners who work and operate outside of Port-au-
Prince in the agricultural and environmental rehabilitation sectors.
    These AgResearch/Development Centers would be able to work with 
their international partners (NGOs) to establish partnerships which 
would result in local agroindustrial entrepreneurships. The centers 
would develop local disease resistant, improved high yield seeds, which 
in turn would increase and diversify farmers' income and contribute to 
food security. Also, planting and cultivation would lead to 
environmental conservation and would serve to mitigate and/or reduce 
impact of natural disasters.
Major impact sectors
            (1) Sugar cane and sugar
    The Province of Leogane, which is the sugar cane cultivation/
production region of Haiti has one of the lowest yields of sugar cane 
output in the Western Hemisphere with a range of 8 to 40 MT of sugar 
cane per hectare--compared to up to 85 MT in other parts of Haiti and 
[other] Latin American countries. For sugar cane as with other crop 
cultivation/production, Haitian farmers have limited access to 
fertilizer, consequently yields remain low.
    The regional low yields result in low income for farmers and poor 
cane and subsequently--poor sugar quality. Haiti produces on average 2 
percent of its nearly 190,000 MT annual consumption, estimated US$117 
million/year or 11 percent of Haiti's annual trade deficit. Sugar cane 
remains one of the most important cash crop in Haiti.\5\
---------------------------------------------------------------------------
    \5\ Depending on market, import price, and even fuel/freight 
fluctuations.
---------------------------------------------------------------------------
    BioTek's optimization of Haiti's only remaining operating sugar 
mill, the Usine Sucriere Jean Leopold Dominique de Darbonne (commonly 
referred to as the Darbonne Sugar Mill) in Leogane would directly 
rehabilitate 15,000 hectares of existing sugar cane fields/plantations.
    This will result both in the augmentation of sugar cane yields as 
well as continued BioTek basic cleaning of regional watersheds to 
mitigate flood risks. The Darbonne Sugar Mill has the production 
capacity to produce 100,000 metric tons (MT)/year of sugar annually, 
thus can displace 50 percent of Haiti's sugar imports and produce an 
estimated 12 to 15 megawatts (MW) of renewable green energy to service 
the capital, Port-au-Prince. The project will create 32,000 farming 
jobs. The BioTek/Darbonne Project can in one scoop, provide a return on 
investments that would contribute to food security for over 250,000 
people (since each worker in Haiti cares and/or feeds 8 others), 
increase regional Leogane buying power and contribute to energy 
security and independence with electricity production from sugar cane 
processing.
    The Darbonne Sugar Mill optimization can is a prime example that 
Investments not Aid are the key to economic self-sufficiency. A similar 
project can be replicated in the North to service the already financed 
and planned industrial park in Cap-Haitien to contribute toward the 
energy requirements of that new facility--estimated at 25MW. Such 
projects entrepreneurial development which would result from readily 
available electricity.
    Besides local sugar production, sugar cane cultivation promotes 
environmental conservation and offers the potential for renewable 
energy production/generation, such as Bio-Energy from sugar cane 
bagasse (a waste product of sugar cane processing and sugar 
production). The right investments in this sector will result in 
greater energy accessibility and affordability, with offshoot benefits 
supporting decentralization [of the capital Port-au-Prince), the 
establishment of SMEs, foreign investments, health care and schools, as 
well as increase GDP and create jobs.
            (2) Rice
    Haitian rice consumption is estimated at 467,000MT/9.5 million 
people and produce only 12 percent of that total.\6\ Rice has comprised 
the second-largest type of food aid to Haiti, in volume terms, both 
globally and from the United States. Rice is the most important crop in 
the food security debate in Haiti and plays a major role in influencing 
national and regional politics. Much of this sensitivity arises from 
the fact that the country was once nearly self-sufficient in rice 
production, but now relies heavily on imports.
---------------------------------------------------------------------------
    \6\ Note: ``Average Consumption'' only reflects the sum of imports 
and production, and lacks food aid contributions.
---------------------------------------------------------------------------
    If the United States and the international community were to invest 
an estimated US$400 million of its aid funding toward the 
revitalization of 100,000 hectares of rice fields/plantations, the 
return on investment cost would be the creation of an estimated 250,000 
agricultural jobs, production of an estimated 350,000 to 400,000 MT/
year of rice (conservatively)--while simultaneously ensuring 
decentralization of Port-au-Prince. This investment would displace the 
average annual U.S. aid to Haiti and the funds spent on food aid 
programs in 3 years.
    According to USAID, ``Locally produced rice is preferred by 
Haitians over imported. However, given the significant price 
differential between imported and the locally produced varieties--which 
may cost as much as twice the price of imports at the retail level, 
depending on location and seasonality--households have to carefully 
balance their preference for locally produced commodities with their 
binding budget constraints. This price differential has been 
exacerbated by the reduction of import tariffs in 1996, and increase 
production costs.'' \7\
---------------------------------------------------------------------------
    \7\ USA1D Food Program. Office of Food for Peace Haiti, 2010 Haiti 
Market Analysis.
---------------------------------------------------------------------------
    The USAID Report also states that ``The purchase of imported food 
commodities diverts resources away from Haitian producers, and a 
significant share of the profits generated along the marketing chain 
for imported commodities is captured by a small, collusive group of 
oligopolistic importers of staple foods.
    The team spoke with some of the local Haitian importers, who 
confessed that their business practices would not be fair according to 
U.S. standards. The report concludes that Haiti's top-level market 
actors benefit from unregulated trade and challenge the entry of new 
market actors.
    Additional challenges:

  <bullet> The majority of key informants in the private sector do not 
        favor food distribution.
  <bullet> Food insecurity in Haiti is primarily due to limited cash 
        which constrains household capacity to purchase marketed food.
  <bullet> Local markets are fairly well-integrated, though in general, 
        the markets for imported commodities are more integrated than 
        for local commodities.
  <bullet> Poor transportation infrastructure increases the costs of 
        marketing, and thereby affects integration of markets.
  <bullet> Lack of to credit negatively impacts all players along the 
        entire value chain for locally produced commodities.

    To sum it up--The USAID Report indicates that food insecurity in 
Haiti is not caused by the lack of food availability. Clearly, the 
private market has the capacity to meet localized food deficits. 
However, this availability is heavily dependent on imported foods, 
prices for which are subject to fluctuations in global food prices and, 
more importantly in Haiti's case, to manipulation by the oligopolistic 
firms that control an estimated 80 percent of Haiti's marketed food 
supply. Based on available evidence, these firms engage in rent-seeking 
behavior which results in unfair market prices for consumers.
    These characteristics of the Haitian food supply create an access 
issue among average Haitians, an estimated two-thirds of whom are 
unemployed, and 50 percent of whom live on less than US$1 per day.
            (3) Livestock, poultry, and eggs
    This report will not cover poultry and other livestock for the sake 
of brevity. But let the record note that poultry and eggs represent 
imports estimated at US$185 million annually or 17 percent of Haiti's 
annual trade deficit.\8\
---------------------------------------------------------------------------
    \8\ Numbers are based on preearthquake figures MFT SA, a Haitian 
poultry/egg company.
---------------------------------------------------------------------------
    The Poultry/Egg sector's main impediment is not the ability to grow 
chicken and eggs, but the inability to feed the chicken and eggs. The 
poultry mills must import the feed--which they cannot afford. The 
poultry industry's obvious solution is to grow the feed locally to sell 
and to service both the human and poultry markets.
    As with the other sectors showcased in this report, in order to 
succeed the poultry industry also needs agricultural revitalization 
with investments in the expansion of maize and other products to 
survive and to thrive.
            (4) Agro-solutions: converting waste to fertilizer and/or 
                    compost
    The Major Agricultural Impact sectors (rice, sugar, and poultry) 
are interrelated and have the potential capacity to (a) optimize 
Haiti's existing Agro-Energy nexus; (b) create thousands of jobs; and 
(c) contribute to the reduction of Haiti's trade deficit while also 
increasing GDP and the standard of living. Therefore, any genuine and 
viable economic program must revamp these key sectors to revitalize 
Haiti's economy.
    Solutions, including converting waste to fertilizer and/or compost 
can become vital employment and created entrepreneurship opportunities 
in Haiti. Waste collection to be recycled and converted to fertilizer 
and compost adopts an Integrated Resource Management approach which 
makes use of indigenous or existing assets such as waste, including 
Municipal Solid Waste to produce and yield a natural fertilizer with 10 
times the nutrient content of composting. This results in the reduction 
of the use of fossil fuel fertilizers (which Haitians can ill afford).
    Haiti's capital produces between 1,600 to 2,000 MT of Municipal 
Solid Waste (MSW)--of which 75 percent is food waste. This agricultural 
waste product can be converted to fertilizer and/or compost and energy. 
Preliminary evaluations from U.S. company, DCK, indicate that Port-au-
Prince's waste stream can produce an estimated 12 MW of electricity. 
Therefore, allowing waste collection and processing to pay for itself 
as well as improve food production with higher yields and create jobs.
    The use of recycle MSW to produce fertilizer and compost is carbon-
neutral and can reduce Green House Gas emissions by up to 25 percent 
according to Chris Corps of British Columbia's Simon Fraser University 
and Royal Roads University.
Investing in Haiti means investing in Haitian agriculture
    USAID [Report] emphasizes that ``the longer term solutions to 
enhancing market performance and improved food security will depend on 
overall investment in agriculture, infrastructure, and development of 
income-generating opportunities, in the near term, continued cash and 
in-kind support will be necessary to ensure basic needs are met in the 
short and medium term.''
    At first glance, per USAID, the availability of food, combined with 
the lack of consumer purchasing power, suggests that increasing poor 
households' income and therefore access to food is the logical answer. 
According to USAID, longer term solutions to reducing food insecurity 
will require reducing the dependence of the poor on the market in its 
current structure.
    But how can Haitians whose average earnings of US$1 to $2 per day 
secure this purchasing power and/or develop income-generating 
opportunities with competing and even subsidized products from the 
United States and other countries?
Energy
    According to Haiti's Ministry of Public Works, the Haitian 
electricity deficit is estimated at 700 Megawatts (MW). Electricity is 
generated nearly 100 percent from imported fossil fuels and represents 
an estimated 27 percent of Haitian annual trade--nearly one-third of 
the Haiti trade deficit, or +US$350 million per year (estimate based on 
fluctuating market price).
    Haiti fuel is provided 100 percent through an agreement between the 
GOH and Venezuela via PetroCaribe. The PetroCaribe/Haiti cooperation 
agreement sponsored by Venezuela offers a secure energy supply at 
preferential financing rates to 17 Caribbean countries, including 
Haiti. Under Petrocaribe's financing terms, Haiti can import 14,000 
barrels of oil a day and has 3 months to pay for 60 percent of each oil 
shipment, and 25 years to pay the balance at 1 percent interest.
    The Haitian Electricity Company (EDH) has a dismal 169,000 clients 
sporadically receiving electricity services in a nation of 10 million. 
Businesses and more affluent Haitians are forced to fend for themselves 
at a cost estimated to range between US$.75 cents to US$.85 cents per 
kilowatt (KW) compared to the average U.S. retail electricity prices of 
US$.12 cents/KW.
    Haiti can optimize its agroenergy base and potential by making (a) 
use of its existing assets: sugar and rice industries to produce 
bioenergy from processing waste or biomass products; (b) rehabilitate 
watersheds and rivers by cultivating specific agricultural species 
along the [river] banks which will mitigate erosion and produce bio-
oils; and (c) there is also the potential of converting Municipal Solid 
Waste (MSW) into energy.
    Lack of readily accessible and affordable energy/electricity keep 
wages low in many sectors, as much of Haiti's basic infrastructure 
(i.e., water, transportation) is either highly cost prohibitive or 
nonexistent. Energy shortages alone severely limit buying power, access 
to education and technology and as a result impede educational 
opportunities, productivity and return on human and capital 
investments.
    The EDH suffers chronic loss of +50 percent of electricity during 
grid transmission as a result of theft, antiquated and poor 
infrastructure, representing a financial loss of US$84 million/year).
    Existing agricultural waste to energy options as seen in the 
previous segment, along with Haiti's existing agroenergy potential can 
provide consistent and lower cost electricity and can make a positive 
impact on the Haitian energy market.
Credit/financing
    This sector remains the most challenging for the Haitian Private 
Sector because one cannot revitalize either agriculture or energy or 
any sector without money. Credit and financing are nearly nonexistent 
and depend a great deal on international financing agencies, for which 
the qualification process can be so daunting to many Haitians that even 
larger companies do not seek to apply, much less qualify.
    A March 2010 survey of Haitian Small and Medium Business 
Enterprises (SMEs) cited in the Haitian Presidential Commission on 
Competitiveness Report of March 2010 found that access to affordable 
financing ranked as a top priority in their efforts to re-start 
operations in the aftermath of the earthquake.
Effectiveness of aid in Haiti
    Despite widespread agreement that entrepreneurial innovation is the 
engine that fuels economic growth and job creation, U.S. funding and 
resources dedicated to cultivating Haiti's private sector have been 
comparatively low. Since 1990, the USG has invested or donated US$4 
billion in order to counter Haiti's dismal economic downfall, yet the 
country remains the poorest in the Western Hemisphere. (U.S. Department 
of State, Hill Briefing Notes, published in March 2010.) The donor 
community has pumped in a similar amount--with little to show for it.
    Many Haitians believe that these poor results are due in part to 
the lack of support and USG funding targeted toward the private sector, 
which over the past 15 years has totaled just US$163 million, with 
roughly 42 percent of the total coming through during fiscal years 
2009/2010, according to the U.S. Agency for International Development 
(USAID).
    According to the World Bank's Outlook for Remittance Flows (2010-
11), the diaspora officially sent $1.4 billion in remittances to Haiti 
in 2008, and unofficially may have sent as much as $2 billion. 
Remittances have now surged to US$1.8 billion officially. Additional 
aid comes from an estimated 50 percent of American households to Haiti. 
Private donations represented an estimated US$2.7 billion in the 
aftermath of the earthquake. Yet, in spite of all of these billions of 
dollars in aid and contributions, Haiti remains one of the most food-
insecure places on earth with 58 percent of Haitians lacking adequate 
access to food, which equates to 5.2 million people.
    Though Haiti has benefited from roads, hospitals, and the 
revitalization of many of its sectors from U.S. aid, we, in the United 
States must acknowledge that if for every US$100 of USG Aid to Haiti, 
US$98.40 returns to the United States, then we cannot expect a better 
return on investment than that represented by the limited results to 
date.
    Therefore, it is time to rethink and redefine U.S. development 
assistance approach to Haiti--and it is imperative that the United 
States, the international community (or Haiti's financial partners) and 
Haitian actors themselves adopt and implement solutions that redress 
unfair international policies and local impediments that have caused 
endemic Haitian economic failure. Per Mr. Bracken Hendricks of the 
Center for American Progress ``The global community must ensure that 
the reconstruction of Haiti's infrastructure increases economic 
resilience by adding value to existing indigenous assets.''
    The U.S. and Haiti's other financial partners should implement an 
approach based on investment which demands better accountability and 
expect future ``Return on investment'' in the form of establishing and 
contributing toward a self-sufficient economy--where Haitians have 
actual buying power. This strategy will save the United States billions 
of tax dollars in aid funding in the long run and create an 
economically self-sufficient Haiti.
    Dr. Philip Auerswald's of George Mason University: ``Haiti's path 
to prosperity does not run through the halls of aid agencies, but from 
seed to harvest.''
    If the international community is at a loss regarding Haiti, 
Haitians themselves are quite sure of what they want. Respondents to an 
Oxfam America survey of people affected by the earthquake ranked 
support for local food production among the four most important 
assistance interventions (along with job creation, education, and 
shelter).
               background: haiti's not without resources
    Senator Lugar's Haiti report states ``In a nascent economy like 
Haiti's, growth is driven by new business formations. This occurs in 
the service sector especially (restaurants, hotels, and corner stores) 
but also in the broad array of businesses that support entrepreneurial 
expansion. Historically, entrepreneurial instincts among Haitians have 
recognized these economic needs and the broad promise that business 
development offers the Haitian people, especially regarding job 
creation.''
    Haitian agriculture is at the very fabric of Haiti's potential to 
revitalize its economy. And, to understand Haiti's agricultural 
struggle today and the current sensitivities surrounding certain 
commodities, one must acknowledge two primary factors which resulted in 
Haiti's agricultural decline: the trade embargo imposed on Haiti in the 
early 1990s, and the trade liberalization which began in the mid-1990s 
under the Structural Adjustment Programme.
    According to the USAID Office Food for Peace, Haiti Market Analysis 
Report (August 2010) Until the first half of the 1980s, tariff barriers 
protected Haitian agriculture from foreign competition. Customs duties 
were relatively high to discourage imports.
    Many Haitians believe that Haitian agriculture decline began in the 
1980s as opposed to the 1990s with the massive importation of rice and 
other agricultural commodities. The adopted strategy by the then-
Duvalier regime was the sporadic suppression of the sale of local rice 
production [and subsequently of the farmers] in favor of imports. 
Though, this practice was sporadic indeed, the laws to benefit those in 
the rice and other import industries did not officially take effect 
until the implementation of the World Trade Policies (WTO) and CARICOM 
agreements, and were further exacerbated by the 1990s trade embargo.
    The embargo imposed on Haiti from 1992-1994 destroyed the Haitian 
agroindustrial base and caused the loss of 200,000 jobs as per the 
Lugar report, mainly in the factories. For example, the Darbonne Sugar 
Mill which was opened in 1983 and promptly closed some 3 years later by 
then Minister of Finance Delatour who thought it more economical to 
import sugar. The embargo also limited the availability and even access 
of fertilizer to farmers.
    Under the recommendations of the International Monetary Fund and 
the World Bank, important trade barriers were removed in 1995 as part 
of a Structural Adjustment Programme, making Haiti the most open 
economy in the region and tremendously increasing the country's imports 
of agricultural products. Trade liberalization removed protections for 
domestic commodities and encouraged an increase in imports, many of 
which directly or indirectly competed with domestic commodities.\9\
---------------------------------------------------------------------------
    \9\ USAID Office Haiti Food for Peace, Haiti Market Analysis. 
August 2010.
---------------------------------------------------------------------------
    Although the trade embargo was lifted the next year (1996), local 
production continued to struggle. This struggle continues today. While 
locally produced agricultural commodities are abundant on markets 
immediately after harvest, domestic producers are unable to meet 
increasing demand from a growing population for relatively inexpensive 
cereals. This is especially true for rice, which has become an 
important staple in the local diet.
    The Artibonite is regarded as Haiti's Bread Basket and Leogane 
regions' pertinent agricultural sectors (rice and sugar) have the 
potential for the creation of an estimated 132,000 agricultural jobs in 
the rice and sugar. Haiti went from being self-sufficient in the 
production of rice, sugar, poultry, and pork to becoming the fourth-
largest importer of subsidized U.S. rice in the world and the largest 
importer of foodstuffs from the United States in the Caribbean.
    In the 1970s, Haiti imported just 19 percent of its food. During 
that decade, the USG, World Bank, and International Monetary Fund began 
creating development plans designed to spur growth in the country's 
manufacturing sector and to move large parts of the workforce into 
urban communities. As part of the strategy, GOH lowered the country's 
tariffs for food imports to as low as 3 percent, while the United 
States raised barriers to exports from Haiti. (Note: the Caribbean 
average is 38 percent).
    Even USAID's WINNER program which looks like a great use of U.S. 
taxpayers' money focuses on crops such as mangoes, lettuce, cabbage, 
and peppers. Accordingly, WINNER's 5-year Monsanto seed donation and 
distribution program to almost 400,000 Haitian farming families 
establishes further dependency on U.S. taxpayer-funded programs and 
ignore a problematic reality and obvious solutions.
    But even if USAID wanted to invest money in helping Haiti to become 
self-sufficient in rice or sugar production, the agency is prohibited 
from doing so by the Bumpers amendment. The law prevents USG aid from 
being spent on programs that could benefit crops that might compete 
with American exports on the global market. As then-Senator Dale 
Bumpers, D-Ark., said in 1985, the law is designed to ``prevent 
American tax dollars from being used to help foreign countries who are 
trying to take our export markets.''
    It is the reason why farmers are only eligible for USAID funding if 
they were growing lettuce or mangoes rather than rice or sugar. 
Mangoes, which barely accounted for US$15 million exports in 2009 and 
cabbage are not going to change the negative balance of trade in favor 
of Haiti. It's not going to allow agriculture to become a mainstay for 
the majority of Haitian farmers. Mangoes and cabbage will not 
contribute to food security in Haiti.
    The USG has taken steps to remediate the disparities in the banking 
sector with the introduction of Mobile Banking. This initiative, which 
was introduced in January 2011 is a viable provision of accessible and 
affordable banking to any Haitian with a cell phone--a technology which 
promises to be very popular, prevalent, and accessible to nearly all 
Haitians.
    Likewise, the new GOH must also provide the leadership and focus 
necessary to the Haitian-American diaspora and the numerous NGO 
operating in Haiti to encourage collaboration, share expertise in 
priority sectors, including training/education, health care and 
agricultural industries.
       how can private investment facilitate the reconstruction?
    For Haiti's reconstruction aid to be effective and sustainable, 
however, Haitian entrepreneurs must also be included and empowered like 
never before to ``buy-in'' and participate in the rebuilding of their 
own country.
    With the understanding that long-term social, political, and 
economic success lies with the creation of viable businesses that 
create jobs and contribute to bottom-up economic development models 
that are beneficial for all parties, substantive joint efforts must 
articulate, define, design,and map out a strategy with a specific focus 
toward the establishment of a Haitian Enterprise Economy.
    To this end, U.S. aid should be effectively converted into U.S. 
investments to better focus on sectors that prioritize Haiti's actual 
needs and capacities--with an eye toward innovation and open 
competition--and with the unequivocal goal of Haitian economic self-
sufficiency.
    Mr. Boisson words are spelled out succinctly in Senator Lugar's 
July 2010 report ``Without Reform, No Return on Investments in Haiti.'' 
\10\ The report states ``Promoting conditions that will catalyze 
indigenous job creation can empower the Haitian people to help 
themselves and is a sustainable approach to foreign assistance. It is 
in our national interest to see Haiti emerge as a commercial partner.''
---------------------------------------------------------------------------
    \10\ lugar.senate,gov/issues/foreign/lac/haiti/pdf/investment.pdf.
---------------------------------------------------------------------------
    For this to occur, it will be necessary for the United States and 
the International Community to provide the pledged financial and 
technical support to rebuild Haiti better, including the strategic 
investment of U.S. aid packages to contribute toward Haitian economic 
self-sustainability for the success of donor assistance programs.
    Mr. Iglode Anglade, a former police officer turned driver in Port-
au-Prince, to better support his family which includes his three 
unemployed siblings, stated that ``jobs are the key to rebuilding 
Haiti.'' Mr. Raymond Lerebours, a farmer and agroentrepreneur who runs 
a modest coffee and cacao triage company and who has worked for local 
agro-industrial companies and Mr. Marc-Antoine Acra, General Director 
of INMETAL SA/NABATCO SA whose company is heavily vested in the import 
of commodities and some minor local agricultural projects, all agree 
``Haiti needs a Development Bank.''
    Mr. Acra added that a means to jump-start the Haitian economy is to 
start by authorizing the existing ``Centre de Facilitation 
D'investissement'' (CFI) or Investment Facilitation Center to become a 
one-stop shop which would service all the requirements to establish a 
business in Haiti. Mr. Acra also strongly supports the need to regulate 
imports in order to protect local producers and investors by stopping 
contraband, dumping and to establish and enforce Haitian corporate and 
social responsibilities.
    Even before the earthquake, Haiti had reached a cross-road and was 
bursting with a thirst for change. Haitians must forge a future with 
the goal toward economic independence which actively moves Haiti off 
U.S. and international aid toward implementation of balanced internal 
and international policies. Haitian leaders must understand that the 
status quo of wealth via international aid no longer applies.
    Haiti is fortunate to have examples of proven economic development 
models and solutions as those used by Brazil and other developing 
countries. Such models can be customized to fit Haiti's actual 
realities, capacities, needs and growth potential.
    Examples of internal Haitian solutions would be to work and to 
educate the miniscule number of large food importers in the Major 
Agricultural Impact Sectors (rice, sugar, and poultry) to invest in 
local production and/or to buy local products--thus, establishing 
vested agroindustrial partnerships by allowing farmers or members of 
the informal economy to actively contribute to the overall economy.
    More importantly yet, would be initiatives that support micro and 
SME financing to small farmers increasing local production for local 
consumption, while creating viable agrobusinesses that also create 
local jobs.
    This would significantly increase the informal sector's buying 
power--currently estimated at some US$4 billion--and result in 
increased tax revenues to the State, increased GDP and improve the 
standard of living.
    Haitian economic independence means direct U.S. adoption and 
implementation of viable and tangible goodwill toward Haitian farmers--
which will positively affect Haitian food production and security. 
According to Dr. Phillip Auerswald's of the School of Public Policy at 
George Mason University, ``It's unambiguous that when you dump 
agricultural produce in a country at a price that is well below what 
farmers can reasonably produce that same output, you're going to 
destroy economic incentives for that industry to exist.''
    But Haiti's dismal industry and infrastructure can now be 
capitalized upon, if as outlined in Senator Lugar's report ``the 
reconstruction efforts are to be successful, Haiti must move decisively 
to address key political and business impediments, which are 
threatening the reconstruction effort and making Haiti an even less 
attractive place for foreign investment.
    ``For example: Ensuring transparent and modernizing the property 
titling system, and reducing barriers confronted when attempting to 
start and operate a business in Haiti should be among the key 
priorities. In this regard, the U.S. Government should expedite funding 
and technical assistance in response to and in support of such reforms. 
However, if reforms in this direction do not occur, American taxpayer 
investments in Haiti, beyond essential humanitarian aid, should be 
reassessed.''
    To progress, Haiti must be an active partner of the United States 
and the international community by also assuming its own 
responsibilities. To this end, Haiti must consciously aim to change 
much of its internal political culture--as well as renegotiate existing 
bilateral policies with international partners that strain and impede 
internal/domestic socioeconomic relations and negatively impact 
economic growth.
    The example of the DR Development Bank which successfully raised 
funds in part by using the USDA's U.S. Export Credit Guarantee Programs 
(GSM-102 and GSM-103) can pump up to US$2 billion into the Haitian 
economy (figures based on current imports). The capital raised can be 
invested in the public and private sector development.
    A Development Bank and/or an Enterprise Fund can consolidate USG 
economic policies for Haiti and allow better control of the import 
market to Haiti. This would result in the gradual reduction of imports 
as local agricultural production increases. Haiti should also adopt the 
CARICOM tariff average of 38 percent to allow its own market to grow. 
These solutions would provide the opportunity to replicate the DR 
Development Bank model, whereby, the funds saved would create 
sustainable revenue streams that will ensure Haiti's progress long 
after foreign assistance diminishes.
    Enterprise funds created in the 1990s for Eastern European 
countries are a tested model and have demonstrated examples of roadmaps 
for local SME development that can help to create robust economies 
fueled by a strong private sector.
Establishing credit and financing: The Haiti Enterprise Fund
    Senator Lugar's Haiti Report cited a lack of Capital Investment as 
the primary impediment to Haitian economic Progress. The report also 
stated that preearthquake, Haiti's primary interest rate was the 
highest in the region. Though, rates have significantly been reduced in 
the aftermath of the earthquake as a result of the backing of 
international financing institution, the lack of capital investment 
continues to be a handicap to the private sector.
    To meet this challenge to private sector development, the United 
States, the international financing institutions and Haiti should 
establish and implement a Development Bank and/or Haiti Enterprise 
Fund.
    The Haiti Enterprise Fund can be underwritten by the USG, rolled 
over and provide increasing leverage beyond the amount initially 
invested. Through its activities at the microeconomic level, the Haiti 
Enterprise fund can contribute to an improved business climate and 
ecosystem for investing and lending also becoming a tool to promote 
Public-Private Partnerships (PPP) and to create the foundation for a 
stable economy in Haiti.
    This demonstration effect would also provide assurances for the 
banks and contribute significantly to reduce and/or to lower the high 
interest rates. Because the majority of the fund will be repaid, the 
fund can be underwritten by the USG and rolled over, thereby increasing 
leverage beyond the amount of the rolling fund. The Haiti Enterprise 
Fund can be a tool to promote Public-Private Partnerships and to help 
create a stable economy in Haiti.
    Mr. Francis J. Skrobiszewski is the former vice president of the 
Polish-American Enterprise Fund and vice president of the Hungarian-
American Enterprise Fund and who assisted in that fund's restructuring, 
and is lending support for the Haiti Encouragement Act of 2010, noted 
in his March 2010 congressional hearing testimony that ``Successful 
examples of enterprise and capacity-building are demonstrated by the 
transformational experiences in Central and Eastern Europe (CEE) and 
Southern Africa which indicate that motivating the indigenous private 
sector can best be accomplished on a business-to-business basis using 
the proven models of the Enterprise Funds.
    ``To build local businesses and to demonstrate the merits of a 
market economy, these innovative financial vehicles successfully 
provided developmental capital on a commercial basis under difficult 
conditions to many thousands of emergent entrepreneurs. Sustainable 
reconstruction can expand opportunity by investing in local 
entrepreneurs and supply chains that build Haitian industries.''
    Programs and solutions can be adopted to create jobs for Haiti's 
over 67 percent unemployed which includes Haiti's rich pool of young, 
dynamic, and often trilingual human resource capital--while 
simultaneously addressing food and energy security in the short and 
long terms to maximize the country's economic potential.
    As stressed in a February 2010 Forbes op-ed ``Priming the pump of 
private capital and promoting free market mechanisms so Haitians can 
create sustainable jobs for one another will help ensure a quick and 
sustainable recovery. Haiti needs business, not programs and 
bureaucracy. Haitians need to see they have a stake in their own 
future, not merely a place in line for hand-outs.'' \11\
---------------------------------------------------------------------------
    \11\ ``Haiti Needs Business, Not Bureaucracy.'' Forbes, February 
17, 2010. http.//forbes.com/2010/02/17/Haiti-earthquake-private-sector-
business-opinions-contributors-francis-skrobiszewski-roger-noriega 
print.html).
---------------------------------------------------------------------------
    This very approach helped Central and Eastern Europe rise above the 
bankruptcy of communism to produce thriving societies with free markets 
and political pluralism. The challenges there, after 45 to 70 years of 
operating under Soviet Marxism, were daunting. And while opportunity in 
the CEE was unparalleled, there were no roadmaps. But there was 
innovative thinking, which could be replicated in Haiti today.
                               conclusion
    Nearly 18 months have passed since Haiti's devastating earthquake, 
and thankfully, much humanitarian assistance has been provided by the 
United States, but also much time has been lost in putting in place 
mechanisms that do more than alleviate the symptoms, but also are 
needed to cure Haiti's ailments at its roots.
    Policy reforms and efforts to develop Haitian SMEs represent the 
essential ``fuel'' that is the catalyst to private business growth. 
``Capital'' and not just money of any sort, but capital that is 
``professionally deployed'' is critical. In 1989, the U.S. Congress 
recognized this was critical with the establishment of the Enterprise 
Funds to ``jump-start'' the Polish and Hungarian private sector fund 
and S. 954 is designed to do the same.
    The examples shared in this report reiterate the need for solutions 
that have been successful and that will create jobs and meet the short- 
and long-term structural needs of Haiti. These solutions articulate and 
design a road map that can contribute to ``the right organization and 
support needed by Haiti to effectively become a self-sustaining and 
very successful country'' per President Clinton.
    The very establishment of the National Fund for Education (FNE) by 
Haiti's new President Michel Martelly is a first step toward Haitian 
economic self-sustainability.
    The fund which is a multisectoral consortium which groups the GOH, 
the private sector, international financial institutions and 
nongovernmental organizations (NGOs) is chiefly composed of a 5 cents 
deduction on incoming international phone calls and $1.50 on 
international money transfers.
    The Fund will allow 350,000 children to go to school in the first 
year, according to UNESCO, and a total of 1.9 million children are 
expected to benefit overall.
    The NFE is a clear example of innovative financing ``independent of 
the traditional aid venues.''
    President Michel Martelly along with the Haitian-American Chamber 
of Commerce (U.S.), Haitian business leaders and friends of Haiti--many 
of whom are present here today--have issued a collective invitation to 
the U.S. and the International Community with the call ``Haiti is open 
for Business.''
    In the aftermath of the earthquake, Haitian-Americans have seen the 
positive impact that ``good'' U.S. responsibility and leadership which 
can be had with SouthComs' search and rescue efforts and subsequent 
restarting of Haiti's manufacturing base, estimated at US$350 million 
for 2010. The latter benefited from direct U.S. legislations such as 
HOPE I and II and the more recent Haiti Economic Lift Program (HELP) 
Act meant to enhance trade preferences for Haiti and providing Haitian 
apparel exports duty-free access to the U.S. market.
    The Haitian economy will experience another boost with the Cap-
Haitien Industrial Park to open in 2012 with the Korean apparel firm 
Sae-A Trading, providing fabrics to Gap, Walmart, Target, and others, 
set to become the largest private-sector employer in Haiti. The Cap-
Haitien project, also includes transportation infrastructure, 
construction and will create thousands of jobs and will make Haiti more 
attractive for investors.
    We also have a Haitian, U.S., and international consensus on the 
solutions that will lead to Haitian economic prosperity. Let us then 
engender the political will to move forward and to support and assist 
Haiti's new President Martelly's call and that of all of the Haitian-
Americans clamoring for change by placing--or better yet by 
``investing'' our tax dollars on a business-to-business basis in 
sectors that will incrementally contribute to replace and to displace 
U.S. and international aid and create a ``two-way'' viable and new 
equitable commercial partner for the United States: Haiti.

    Senator Menendez. Thank you.
    Mr. Sassine.

 STATEMENT OF GEORGES BARAU SASSINE, PRESIDENT, ASSOCIATION OF 
           HAITIAN INDUSTRIES, PORT-AU-PRINCE, HAITI

    Mr. Sassine. Chairman Menendez, Chairman Cardin, 
Representative Hastings, I thank you for the opportunity to 
offer my perspective on rebuilding Haiti as we begin a new era 
under President Michel Martelly. Please allow me to briefly 
describe the particular responsibilities for the economic 
development efforts which reside with ADIH and CTMO-HOPE.
    First, the Association des Industries d'Haiti, or ADIH, of 
which I am the president, represents the majority of the 
manufacturing sector in Haiti, including some of the largest 
employers in the country, particularly in the private sector.
    Second, in 2007, the government established the 
Presidential Tripartite Commission on HOPE, or CTMO-HOPE, for 
which I am the executive director, and this commission is 
responsible for coordinating many aspects of trade with the 
United States, including the HOPE Act, which provides duty-free 
U.S. market access to many Haitian-made apparel products.
    I will describe some of the key successes and the 
trajectory of the HOPE program, and then I will describe how 
the HOPE program is spurring a multistakeholder international 
effort to expand the infrastructure in Haiti necessary to 
encourage new direct investment in apparel and other sectors. 
Both the HOPE program and the extension of manufacturing 
infrastructure are key priorities of the new government of 
President Martelly.
    As you know, the U.S. Congress accelerated and maximized 
the benefits of the 2006 HOPE Act through legislation in 2008 
called HOPE II, and following the 2010 earthquake, Congress 
reacted swiftly to enact a second amendment to HOPE called the 
HELP Act.
    The amended HOPE program has helped Haiti's apparel export 
industry to increase from approximately $450 million to the 
United States in 2006 to approximately $600 million currently, 
and we are now growing at an annual rate of 20 percent.
    Employment in the apparel sector in Haiti has also shown 
strong growth. Prior to enactment of the HOPE I program in 
2006, employment in the apparel sector stood at about 12,500 
workers and this recovered to some 23,000 workers in 2008 when 
HOPE II program was enacted. Today the sector employs over 
28,000 workers.
    The HOPE program has also benefited the U.S. textile 
sector. U.S. textile exports to Haiti have increased 39 percent 
during the last year to nearly $33 million.
    As described, the HOPE program is an unquestionable 
success. However, we are only just beginning to capitalize on 
its potential. Every day I field phone calls from potential 
investors who want to begin new apparel production in Haiti. 
Unfortunately, I have to tell them that the sector is at 
capacity and that there is simply no additional manufacturing 
space to offer right now. I admit this is a good problem to 
have, but if this problem persists for too long, then buyers 
will begin to look elsewhere.
    To address this issue, we are working to increase the 
capacity of Haiti's manufacturing sector through an 
international strategy coordinated with the United States and 
major international institutions. The focus of our combined 
efforts is the construction of two major industrial parks in 
Haiti, one in the north and a second outside of Port-au-Prince. 
Each park would be capable of more than doubling Haiti's 
existing manufacturing capacity and supporting 25,000 to 50,000 
jobs. The northern industrial park project was launched in 
January and will be operational by the second quarter of 2012.
    In addition, we expect this industrial park development and 
the associated infrastructure to catalyze developments in other 
sectors such as tourism and agriculture. For both parks, the 
U.S. Government has made a commitment to provide infrastructure 
support such as electricity and worker housing.
    In the meantime, we are working with the Inter-American 
Development Bank to expand the existing industrial park in the 
Port-au-Prince area with the addition of five more factory 
shells that could be used to create a minimum of 2,500 jobs. 
The World Bank is supporting our efforts by funding CTMO-HOPE 
through trade missions to foreign countries, including Korea 
and Brazil, where we discuss opportunities to utilize the HOPE 
program. The trips have resulted in the commitments of foreign 
direct investment in Haiti's apparel sector that will occur 
upon completion of the industrial parks.
    To address the need for more skilled workers, the Haitian 
Apparel Center is training new operators and managers. The 
Haitian Government donated the main building, and through a 
USAID grant, the center has already graduated 2,000 trainees, 
most of whom have been hired by existing factories.
    In the very near future, the Haitian sector could expand at 
a rapid rate and fortunately we have a mechanism in place such 
as the ILO Better Works program to ensure the industry grows in 
a sustainable and socially compliant manner.
    Let me offer a few concluding thoughts about our existing 
challenges and how we may build upon our partnership with the 
United States.
    The majority of Haiti's economy remains in the informal 
sector. Strengthening Haiti's customs capacity could help bring 
more commerce into the formal economy. We believe also in the 
capacity of state institutions is a priority and is an area 
where U.S. assistance is needed and would be well invested. 
Haiti's trade and customs institutions were weak even before 
the 2010 earthquake, and today they are barely back online.
    It would also be most appreciated if the U.S. Congress and 
the U.S. Government would relay the success stories of the HOPE 
initiative to other regional trading partners, in particular to 
the Governments of Canada and Brazil, both of which are 
considering amendments to their trade preference laws to 
provide Haiti enhanced access to the apparel and textile 
markets. Such programs will not only benefit Haiti but could 
offer new alternatives for U.S. businesses that export textiles 
and other raw materials to Haiti.
    In addition, as included in the HOPE II legislation in 
2008, we believe that it would be a win-win opportunity if the 
U.S. Department of Commerce were to implement this year the 
recommendation of the Congress that a high-level trade mission 
be organized to Haiti.
    We would also recommend that the U.S. Congress give 
favorable consideration to several other important pending 
proposals, including Senator Lugar's Haitian-American 
Enterprise Fund; Senator Durbin's Haiti Reforestation Act; and 
Senator Gillibrand's Haitian Emergency Life Protection Act.
    Although our challenges are not behind us, we see a 
brighter future and greater opportunities coming every day. I 
cannot express enough appreciation to the U.S. Congress and to 
the U.S. Government for the assistance to Haitian 
reconstruction efforts and the outpouring of support following 
the 2010 earthquake.
    Hopefully one day soon, I can return to Congress to report 
that the HOPE program has reached its capacity, and what we 
need is an extension of it. On that day, we will know Haiti's 
economic recovery will be a reality.
    Thank you.
    [The prepared statement of Mr. Sassine follows:]

              Prepared Statement of Georges Barau Sassine

    Chairmen Cardin and Menendez, Ranking Members Corker and Rubio, and 
distinguished members of the Foreign Relations Committee, thank you for 
the opportunity to offer my perspective on rebuilding Haiti in the wake 
of the January 2010 earthquake in Port-au-Prince, and how the new 
government of President Michel Martelly can work with the United States 
and the international community to further our progress.
    The Haitian public and private sectors are embracing what is 
described as the need for a Growth Revolution in Haiti, which is a 
national economic strategy driven by the Private Sector Economic Forum. 
Recently, Mr. F. Carl Braun, chairman and CEO or Unibank, spoke to the 
Inter-American Dialogue to outline the obstacles and opportunities in 
pursuing the Growth Revolution strategy. He outlined that the goal of 
the strategy is to create by 2020 a Haitian economy that is 
``diversified, environmentally sustainable, competitive, vibrant, 
decentralized within the country and integrated into the global 
economy.''
    The pursuit of the Growth Revolution strategy in Haiti is extremely 
difficult because it will require the support and coordination of not 
only the public and private sectors, but also of the NGO community, the 
international community, foreign direct investors, and the Haitian 
people themselves. To succeed, all parties need to engage with each 
other with common purpose and commitment.
    As Mr. Braun explains, ``the international community must deliver 
upon their financial promises, and not promise what they cannot 
deliver; they must provide more qualified human resources with a deep 
sense of commitment to, and a greater interest in and a greater respect 
for, the Haitian people.''
    ``The Haitian private sector sees foreign direct investment as a 
sine qua non condition for the Growth Revolution, and welcomes it with 
open arms, but we wish to see a level playing field where all 
investors, domestic, foreign and Haitian diaspora are treated equally 
and fairly.'' While many of our efforts may seem to focus on luring 
foreign capital into Haiti, I must emphasize that a central tenant of 
our Growth Revolution strategy is to use Haitian resources, sustain and 
grow domestic investments, and increase national capital.
                            adih & ctmo-hope
    At this time, please allow me to briefly describe the particular 
responsibilities for the economic development efforts which reside with 
ADIH and CTMO-HOPE.
    First, the Association des Industries d'Haiti, or ADIH, of which I 
am the president, represents the majority of the manufacturing sector 
in Haiti, including some of the largest employers in the country, 
including in the apparel sector. We are consistently asked by my 
government to provide input and recommendations regarding needed 
policies, laws, and international assistance that would help spur 
economic activity, investment, and job growth in the private sector.
    A single apparel factory can employ thousands of workers, and 
thereby support entire communities. New apparel orders from foreign 
buyers can add jobs almost immediately, and new foreign investments in 
brick-and-mortar apparel factories can be a catalyst to sustainable 
economic vitality. This dynamic explains why the Haitian Government and 
private sector are focused on making Haiti a more attractive market for 
international apparel buyers and investors through internal legal and 
regulatory reforms and external efforts to facilitate trade, including 
through the Haitian Hemispheric Opportunity through Partnership 
Encouragement Act, or HOPE Act, which provides duty-free U.S. market 
access to many Haitian-made apparel products.
    Second, in 2007 the government established the Presidential 
Tripartite Commission on HOPE, or CTMO-HOPE \1\, for which I am the 
Executive Director, and the Commission is responsible for coordinating 
all aspects of implementation, operation, and international marketing 
of the HOPE trade program with the United States. In this capacity the 
Commission acts with the authority of the Haiti Government. The 
Commission is tripartite because it consists of representatives from 
the public sector, private sector and labor movement.
---------------------------------------------------------------------------
    \1\ Commission Presidentielle Tripartite de Mise en CEuvre de la 
Loi HOPE.
---------------------------------------------------------------------------
    CTMO-HOPE helped facilitate the successful implementation of the 
HOPE program, which put the Haitian apparel sector back on the 
international production map. Part of the HOPE program implementation 
included a modern electronic export visa system called ``ELVIS'', which 
was developed through a USAID grant. The ELVIS system is attractive to 
foreign investors because it streamlines the export process and assures 
against any possible transshipment allegations or other types of 
commercial fraud.
    Then, from 2007 to 2010, CTMO-HOPE worked with U.S. congressional 
and government officials on targeted amendments to the program that 
helped to accelerate and maximize the benefits. In 2008 Congress 
enacted the first amendment, called HOPE 11 \2\, and following the 
January 2010 earthquake, Congress reacted swiftly to enact a second 
amendment to HOPE, called the HELP Act \3\. Each amendment expanded the 
products eligible for duty-free benefits, and also enhanced the overall 
capacity and duration of the program to instill longer term investor 
confidence in the program.
---------------------------------------------------------------------------
    \2\ Haitian Hemispheric Opportunity through Partnership 
Encouragement Act of 2008.
    \3\ Haitian Economic Lift Program of 2010.
---------------------------------------------------------------------------
    The government of President Rene Preval prioritized the successful 
implementation and expansion of the HOPE Act from 2006 to 2010, and the 
apparel sector remains a cornerstone of the country's economic 
revitalization strategy for the new government of President Martelly.
    Now I will describe some of the key successes and trajectory of the 
HOPE program, and then I will describe how the HOPE program is spurring 
a multi-stakeholder international effort to expand the infrastructure 
in Haiti necessary to encourage new direct investment in apparel and 
other sectors, such as tourism and agriculture.
                            success of hope
    Special trade preferences have proven to be a highly successful 
method for supporting the Haitian economy, creating employment, and 
improving the lives of many Haitians. Beginning with the Caribbean 
Basin Trade Partnership Act reforms implemented in 2000, improved 
access for Haitian apparel in the U.S. market has provided 
opportunities and jobs for workers in Haiti. Both the CBTPA and HOPE 
trade preference programs have proven to be of great importance to 
Haiti and an illustration of effectively implementing ``trade not 
aid.''
    With each successive set of improvements to Haiti's access to the 
U.S. market, Haiti has increased production and exports. Under CBTPA 
Haitian exports of apparel to the United States nearly doubled from 
$250 million in 2000 to $450 million in 2006. The HOPE program was a 
``game changer'' for Haiti's apparel sector, as Haitian exports have 
surged to $600 and continue to grow at more than 20 percent annually. 
Virtually all Haitian apparel trade is shipped under the special trade 
preferences provided by U.S. legislation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As the Haitian apparel sector builds on the foundation first made 
possible under the CBTPA program, Haiti is now seeing the benefits from 
the HOPE modifications that have allowed Haiti to expand on the mix of 
products we are able to offer. In the past under the CBTPA program, the 
bulk of Haiti's production has been in lower cost, lower value added 
items such as T-shirts and underwear. Today, using the HOPE preferences 
Haitian businesses are making great strides in expanding production of 
better quality, higher fashion garments. During the past 2 years, and 
despite the devastating set back from the January 2010 earthquake, we 
have seen extraordinary growth in products such as men's woven manmade 
fiber shirts, up 43 percent; men's man-made fiber trousers, up 39 
percent, and men's wool suits, which have more than doubled to more 
than $4 million. These are much higher value added products and require 
more and higher skilled workers to produce.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Employment in the apparel sector in Haiti has shown remarkable 
growth. Prior to enactment of the HOPE I program in 2006, employment in 
the apparel sector stood at about 12,500 workers, and this recovered to 
some 23,000 workers in 2008 when the HOPE II program was enacted. 
Today, the sector now employs over 28,000 workers. Most of the 
additional jobs since 2006 are directly linked to the HOPE program. As 
we rebuild from the devastating earthquake, these jobs are invaluable. 
As our production continues to grow, and there are now some 28 
factories operating in Haiti, we will expand on this success and 
employment will grow concomitantly.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It is also important to note that the HOPE program and its 
amendments were also crafted to support the interests of the U.S 
textile sector--and that is happening. U.S. textile exports to Haiti 
have increased 39 percent during the past year to nearly $33 million. 
U.S. textile exports to the Dominican Republic, a significant component 
of which ends up in fabrics that are sewn into apparel in Haiti under 
the various preference programs, have also increased 35 percent to an 
annual level of nearly $600 million. The island now accounts for over 
11 percent of U.S. textile exports and is the largest growth market for 
the U.S. industry. In short, the HOPE program has truly been a ``win-
win'' for both Haiti and the United States.
               foreign investment and industrial capacity
    As described, the HOPE program is an unquestionable success. 
However, we are only just beginning to capitalize on its potential. 
Thanks to HOPE the sector is thriving near its maximum capacity given 
the current industrial capacity in Haiti. We could be producing more 
and creating more employment, but our largest constraint right now is a 
shortage of industrial factory space.
    Every day I field phone calls from potential foreign investors who 
want to begin new apparel production runs in Haiti. Unfortunately, I 
have to tell them that the sector is at capacity, and there is simply 
no additional manufacturing space to offer right now. I admit, this is 
a good problem to have, but if this problem persists for too long then 
buyers will begin to move Haiti further down their list of potential 
sourcing locations.
    This is why CTMO-HOPE has pursued a dual approach to revitalizing 
the apparel manufacturing sector: enhance trade benefits under HOPE and 
simultaneously expand Haiti's capacity to utilize the benefits. In my 
capacity as Executive Director of CTMO-HOPE, I have been intimately 
involved in the efforts to increase the capacity of Haiti's 
manufacturing sector through an international strategy coordinated with 
the United States and major international institutions such as the 
Inter-American Development Bank and the World Bank-IFC. The focus of 
our combined efforts is the construction of two major new industrial 
parks in Haiti, one in the north of the country, in the Cap-Hatien 
area, which will be driving development as part of an integrated 
strategy for the north, and a second industrial park outside of Port-
au-Prince. Each park would be capable of more than doubling Haiti's 
existing manufacturing capacity, and supporting 2550,000 jobs.
    The construction of an industrial park is an enormous undertaking. 
It begins with financial feasibility and environmental impact studies, 
and then requires construction financing coordination, tenant lease 
commitments, power and water development, worker housing and training, 
and port and transit infrastructure development.
    The U.S. State Department, through the Haiti Special Coordinator, 
Ms. Cheryl Mills, has provided invaluable support working with all 
stakeholders to follow through on their commitments during the process. 
I also want to express my sincere appreciation to other U.S. Government 
agencies and the U.S. Congress for the enormous support provided to 
Haiti in recent years.
    It is not my role to outline for you the details of the specific 
programs that the United States is operating in Haiti, or the levels of 
funding that the U.S. Government is spending or has committed. These 
details are best presented by U.S. Government officials. However, I 
will describe some broad efforts that are underway in cooperation with 
the U.S. Government and the other international institutions.
Northern Industrial Park
    This past January the Government of Haiti, the Inter-American 
Development Bank, the largest Korean apparel company Sae-A, and the 
U.S. Government signed a memorandum of understanding to launch the 
construction of the first new industrial park in the north. We are 
optimistic the project will be completed and operational by the second 
quarter of 2012. We already have commitments from other major foreign 
apparel producers to also begin operating in the park upon its 
completion.
    The IDB is financing the main structure of the park, including the 
factory shells, roads, and other logistics and facilities. The U.S. 
Government stake in the northern industrial park will include projects 
in energy infrastructure and housing, as well as port capacity 
expansion. In addition, as mentioned, we expect this industrial park 
development and the associated infrastructure to also catalyze 
developments in other sectors, such as tourism and agriculture.
Ganthier Industrial Park (Outside Port-au-Prince)
    We are also working with the U.S. Government on a second industrial 
park development project, which would be located outside of Port-au-
Prince. The International Finance Corporation, which is part of the 
World Bank, has agreed to fund feasibility and impact studies for the 
industrial park development in Ganthier.
    The U.S. Government has made a commitment to provide the same types 
of infrastructure support for the Ganthier industrial park as is being 
provided for the northern park, such as power supplies and worker 
housing. In the meantime, we are working with the support of the IDB to 
expand the existing industrial park in the Port-au-Prince area, SONAPI, 
with the addition of five more factory shells that could be used to 
create probably a minimum of 2,500 additional, badly needed jobs.
Marketing Efforts
    Part of CTMO-HOPE's mandate is to ensure that foreign apparel 
buyers are aware of the trade benefits available under the HOPE 
program. Over the past 4 years we have hosted several events, 
conference calls, and have been involved in other forums to present and 
promote the many advantages of doing business in Haiti.
    The World Bank is supporting our efforts by funding CTMO-HOPE trade 
missions to foreign countries. My team and I have so far made several 
trips, including to Korea and Brazil, where we meet with both 
government and private sector officials to discuss potential synergies 
and opportunities to utilize the HOPE program. The trips have resulted 
in the commitments of long-term foreign direct investment in Haiti's 
apparel sector that will occur upon completion of the industrial parks.
Haitian Apparel Center
    The Government of Haiti has initiated efforts to establish an 
apparel manufacturing training center and has provided the main 
training building. The Haitian Apparel Center, or HAC as it is called, 
which is located in the SONAPI industrial park in Port-au-Prince, is 
training Haitians to be operators and managers in the growing apparel 
manufacturing sector. Through a grant from USAID, the HAC has graduated 
2,000 trainees, and approximately 60 percent of those graduates have 
been hired by existing factories. It is my understanding that USAID 
will continue to support this program.
    The success of the Port-au-Prince HAC demonstrates the need for a 
similar operation in the north of Haiti. The looming capacity of the 
new industrial parks will require thousands of additional trained 
Haitians workers.
Special Economic Zones
    Haiti is also working with the IFC to develop a model for special 
economic development zones in the country that will facilitate private 
investment. The goal of the zones is to streamline the process of 
starting a business. Initially we envision five to six zones that would 
include industries such as tourism and light manufacturing.
Social Compliance
    The HOPE trade program was novel because it included, at the 
request of CTMO-HOPE, a mechanism to ensure that worker rights would be 
protected in the apparel manufacturing sector. As implemented under 
HOPE, the International Labor Organization operates a Better Works 
program in Haiti's apparel sector, which monitors international worker 
rights standards in factories, helps remediates any issues, and 
publishes public reports on the compliance record of all factories in 
Haiti. Haiti is the first country in the hemisphere to have a Better 
Works program--because we are well aware that compliance is an 
important issue for major U.S. buyers, and we are committed to building 
a world class apparel sector, not simply on the basis of inexpensive 
labor, but also on the basis of high quality and world class social 
compliance.
    The Better Works program is well accepted by Haitian factories and 
U.S. buyers concerned about social compliance and brand protection. 
Just this month Better Works held a buyers forum in Haiti that was well 
attended by the industry.
                           concluding remarks
    Again, I cannot express enough thanks to the U.S. Congress and the 
U.S. Government for the proactive assistance and support for Haitian 
reconstruction. We are also greatly appreciative of the outpouring of 
support we received after the devastating earthquake last year. I also 
must mention that as Members of the U.S. Congress your personal visits 
to Haiti have a positive impact on driving policy, a positive impact on 
the lives of Haitians, and the visits strengthen the positive 
perception of the bilateral relationship.
    The enhanced HOPE program gives our apparel manufacturing sector 
the potential to be a cornerstone of the country's reconstruction, and 
the industrial park development process is well underway to providing 
needed capacity. In the very near future the Haitian sector could 
expand at a rapid rate, and fortunately we have mechanisms in place, 
such as the Better Works program, to ensure the industry grows in a 
sustainable and socially compliant manner.
    Bolstering the integrity of state institutions is a priority of the 
Martelly government, and it is an area where U.S. assistance is needed 
and would be well invested. In order to attract foreign investment in 
Haiti, we must continue to work toward establishing a level playing 
field that will instill confidence for both domestic and foreign-owned 
businesses. As Haiti's manufacturing industry grows, and as we 
experience corresponding growth in trade with the United States and the 
world, it is critical that our trade institutions have the capacity to 
ensure that critical international commercial priorities are 
safeguarded, such as transparency, facilitation, and enforcement. 
Haitian trade and customs institutions were weak even before the 2010 
earthquake, and today we are barely back online. Nearly 70 percent of 
Haiti's economy operates outside of formal institutions, and 
strengthening Haiti's customs capacity could go a long way toward 
bringing more commerce into the formal economy.
    It would be most appreciated if the U.S. Congress and U.S. 
Government would relay the success stories of the HOPE initiative to 
other regional trading partners. In particular, we have made requests 
to the governments of Canada and Brazil. It would be helpful if the 
Canadian Government could update their preferences program for Haiti to 
allow the use of U.S. inputs, which are currently not permitted. In the 
case of Brazil, we are looking forward to early passage in Brazil of a 
trade program that would provide Haiti preferential access to the 
Brazilian apparel and textile market. Such programs would not only 
benefit Haiti, but could offer new opportunities for U.S. businesses 
that export textiles and other raw materials to Haiti.
    In addition, as included in the HOPE II legislation in 2008, we 
believe that it would be a win-win opportunity if the U.S. Department 
of Commerce were to implement this year the recommendation of the 
Congress that a high-level trade mission be organized to Haiti. For our 
part, we stand ready to offer every assistance for the success of such 
a trade mission.
    We would also recommend that the U.S. Congress give favorable 
consideration to several other important pending proposals:
    First, Senator Lugar's Haitian-American Enterprise Fund \4\ could 
facilitate the creation of many new small businesses in Haiti by 
providing access to financial services and other services that are 
currently difficult for Haitians to obtain, such as loans, insurance, 
and training.
---------------------------------------------------------------------------
    \4\ S. 954--112th Congress.
---------------------------------------------------------------------------
    Second, Senator Durbin's Haiti Reforestation Act \5\ could help 
reduce the alarming rate of deforestation in Haiti, and would take 
steps toward reforestation. Just this past week, 28 Haitians died in a 
mud slide that was attributed to deforestation.
---------------------------------------------------------------------------
    \5\ S. 1023--112th Congress.
---------------------------------------------------------------------------
    Third, Senator Gillibrand's Haitian Emergency Life Protection Act 
\6\ would allow Haitians whose petition for a family-sponsored 
immigrant visa that was approved on or before the January 2010 
earthquake to live and work in the United States while waiting for the 
completion of the immigrant visa process.
---------------------------------------------------------------------------
    \6\ S. 480--112th Congress.
---------------------------------------------------------------------------
    Although our challenges are not behind us, we see a brighter future 
and greater opportunities coming every day. We would not be approaching 
the world with such a vision if it were not for the support of the 
American people.
    Hopefully, one day soon I can return to Congress to report that the 
HOPE program has reached its capacity, and what we need is an expansion 
of it. On that day, we will know Haiti's economic recovery and the 
Growth Revolution will be a reality.
    Thank you.

    Senator Menendez. Mr. Shaye.

   STATEMENT OF GARY SHAYE, HAITI COUNTRY DIRECTOR, SAVE THE 
                CHILDREN, PORT-AU-PRINCE, HAITI

    Mr. Shaye. Senator Menendez, Senator Cardin, Congressman 
Hastings, thanks for the opportunity to be here.
    This afternoon I want to provide a perspective of Save the 
Children and other NGO's about what we need to do as an 
international community to continue to respond to Haiti.
    We have to continue to address the remaining impact of the 
earthquake, support stronger aid delivery mechanisms through 
improved coordination, and invest in key areas, including the 
capacity of the government as both Senators mentioned in their 
opening remarks.
    In terms of the impact, the earthquake was widespread, left 
over 1.5 million people displaced, another 500,000 people 
scattered throughout the country, living with families and 
friends who already faced economic challenges. Save the 
Children provided support to over 1 million Haitians in terms 
of shelter, food and water, health and nutrition, child 
protection, education, and livelihoods.
    NGO's on the ground do see some improvement. Rubble is 
cleared. Some families are rebuilding their homes. Schools are 
being rebuilt, opened, and children are resuming their 
education.
    How do we address the remaining impact of the earthquake?
    While many donors are eager to leave behind the relief 
phase to move to long-term development, as we all do, many 
Haitians are still displaced and living in tented camps. Women 
and girls are the most affected and most vulnerable population. 
Many camps lack comprehensive security plans and women sense 
their vulnerability. There are anecdotal reports of increases 
in transactional sex and other forms of sexual exploitation, as 
women who live in desperate conditions seek ways to earn 
income. It is likely that reported cases are well below the 
real numbers due to the fear of stigmatization, ignorance about 
support mechanisms that do exist, and a very real fear of 
reprisals. Numerous Haitian young girls have been pushed to 
sell their bodies to meet basic needs. We need as a community 
to invest more in both women and adolescent girls to, first of 
all, ensure their protection, and see to it they can play an 
active role in the leadership of Haiti.
    Health remains an ongoing concern. With the onset of the 
rainy season, cholera has spiked in parts of the country and is 
likely to increase as rains continue. This is happening as 
relief funding for NGO's is coming to an end or has ended, 
meaning some services will no longer be available. Some NGO's, 
including Save the Children, will probably have to close 
clinics in areas where cholera is increasing. Should these 
facilities close, there will be no service and deaths probably 
will not even be reported as the nearest facilities are not 
near enough for those that require emergency treatment. We 
require an agile decisionmaking mechanism to address the 
urgency of cholera.
    As we go forward, some of the recommendations of the 
international NGO's are that we have to ensure basic 
humanitarian needs are met. The collective response of the 
Government of Haiti and the entire international community must 
address the economic security of the Haitian families. 
Permanent housing options, water and sanitation, livelihoods, 
and rebuilding health and education and effective protection 
systems are all required. At all times, we have to include 
disaster risk reduction approaches in our communications with 
the population.
    Donors and other aid implementers will require strong 
coordination and a long-term vision that focuses on supporting 
the capacity of the Haitian Government and civil society. We 
have to make long-term investments in the government and people 
of Haiti. Donors need to make multiyear investments and set 
reasonable goals. These words are easy to use. Yet most funding 
is for 6 to 9 months. Solutions to Haiti's problems do not lend 
themselves to 6-9-month funding cycles.
    NGO's want to serve as a partner to the Government of Haiti 
and use our on-the-ground presence by hosting government 
employees who could receive on-the-job technical training and 
later return to government service to build the long-term 
ministerial capacity required.
    There are, as was stated before, many reasons for optimism. 
President Martelly's bold initiative on primary education and 
other investments to strengthen Haiti's education system 
resonates with Haitians. Two weeks ago, I had the opportunity 
to be with President Martelly at a school inauguration and it 
was gratifying to see how he connected with the population, the 
school children, the teachers, and the entire community. In his 
remarks he expressed his vision to see to it that all Haitian 
children have access to a free primary education.
    We have to tap in and continue to tap in to the 
resourcefulness and demonstrated commitment of Haitians living 
abroad who want to ensure a better future for Haiti. 
Opportunities presented as a result of the earthquake bring 
resources and international partnerships to Haiti and there is 
a great interest to continue supporting Haiti.
    So in conclusion, with coordinated and energetic leadership 
from the government and civil society of Haiti, support from 
the diaspora, sustained commitment from the international donor 
community, we believe we can improve the situation for 
Haitians.
    [The prepared statement of Mr. Shaye follows:]

                    Prepared Statement of Gary Shaye

    Mr. Chairman, and members of the subcommittees, Save the Children 
welcomes this joint hearing by the Senate Foreign Relations 
Subcommittees on reconstruction in Haiti. Eighteen months after the 
January 2010 earthquake and 3 months after democratic elections, Haiti 
is at a crossroads, facing both challenges and opportunities. The 
choices made today by the people of Haiti, their government, and the 
international community that seeks to support them will be fundamental 
to rebuilding a better and stronger Haiti--a Haiti that is much 
stronger than it was before the earthquake.
    The devastation wrought by the January 2010 earthquake is well 
known: 230,000 people killed; 300,000 injured; 2 million displaced from 
their homes and an estimated $7.8 billion in damage--an amount greater 
than the country's 2009 GDP. The humanitarian response was also 
significant: as of April 2011, donors had provided $2 billion in 
financial and other assistance and private donations equaled $1.5 
billion. The U.S. Government alone provided $1.1 billion by the end of 
fiscal 2010.
    Despite this, the humanitarian effort--much of it implemented by 
international nongovernmental organizations including Save the 
Children--was challenged not only by the scale of the disaster but by 
the reality of an already difficult and costly operating environment, 
made more complex after the earthquake. Government capacity, already 
limited prior to the earthquake, was devastated by the loss of lives 
and infrastructure in key ministries. With the massive destruction of 
life and infrastructure, material and human resources were brought in 
from the outside at higher cost. Humanitarian relief efforts were 
further challenged by the cholera epidemic of October 2010, which 
continues as we speak, and Hurricane Tomas in November 2010. Budget 
lines typically reserved for transitional funding at the end of a 
relief effort were allocated to meet new urgent needs.
    And yet tragically, for many Haitians, the services provided in 
camps during this year of catastrophes--access to clean water and 
health services, for example--surpassed what they had before. In 2009, 
U.N. agencies reported that 50 percent of Haitians lacked access to 
potable water; nearly a quarter of the population was undernourished; 
and an estimated 500,000 children never attended school. As we look to 
support the reconstruction of Haiti, we need to think past 
reconstructing what was there before. A Haiti that looks like it did in 
2009 would represent a failed opportunity, and we need to acknowledge 
this.
    Building a better future for Haiti's children will require 
sustained U.S. engagement that, at a minimum, does three things:

  <bullet> Addresses the remaining impact of the humanitarian crises;
  <bullet> Supports stronger aid delivery through improved coordination 
        and other best practice; and
  <bullet> Invests in key areas, including the capacity of government 
        and the voices of Haitian citizens.

       addressing the remaining impact of the humanitarian crises
    While donors are eager to leave behind the relief phase and move to 
long-term development, many Haitians find themselves still living in 
camps, suffering from cholera outbreaks or facing the daily threat of 
gender-based violence. To date, over 600,000 Haitians are still living 
in camps or other types of transitional shelter. Many face forced 
evictions. Crowded and insecure conditions too often facilitate 
violence against women and children. A household survey conducted by 
the Center for Human Rights and Global Justice at the New York 
University School of Law in March of this year showed that 14 percent 
of respondents in four IDP camps indicated that at least one member of 
the household had been raped since the earthquake; 60 percent of 
respondents reported fear of sexual violence. It is likely that 
reported cases are well below the real numbers due to the fear of 
stigmatization, ignorance of existing support mechanisms, and fear of 
reprisal attacks. With the onset of the rainy season last month, 
cholera yet again spiked in certain parts of the country and is likely 
to increase again.
    This is all happening just as relief funding for international 
nongovernmental organizations (INGOs) is coming to an end, in many 
cases without the possibility of renewal. Due to depleted funding, many 
INGOs have left or reduced their projects in camps, leaving services 
there limited, nonexistent or in disrepair. Some Cholera Treatment 
Units are scheduled to close in the next months, and in some areas of 
the country increased caseloads are likely just as they are downsizing 
operations. While overall the cholera response has been effective, we 
require more agile and quick decisions so that agencies addressing 
cholera treatment do not have to close operations and dismiss staff, 
only to reinitiate operations a few months later.
    The desire to avoid a culture of dependency and transition to a 
longer term development approach is the right one. A holistic 
resettlement strategy accompanied by a strong livelihoods plan is 
imperative; solutions to land rights and housing will need to be found 
to end temporary shelter; investments will need to be made in the 
health system and in water and sanitation to address cholera; and an 
economy that guarantees jobs will do more for families and communities 
than a temporary cash for work program. But the transition from relief 
to recovery does not follow the deadlines of when we need to move money 
from one budget line to another. Relief and recovery must go hand in 
hand and often need to happen simultaneously in order to be effective.
    Even as they support the Haitian Government and civil society in 
addressing the longer term issues, donors need to:

  <bullet> Work with the Haitian Government, U.N. system, 
        nongovernmental organizations (NGOs), Haitian citizens and 
        others involved in relief to identify transition gaps that 
        require more effective transitional funding mechanisms and, 
        based on this assessment, design adequate funding channels to 
        respond to continued needs.
  <bullet> In response to cholera, which is unpredictable, maintain 
        funding for emergency response, until alternatives are in place 
        to meet health needs and ensure access to water. Funding 
        channels should be established that are sufficient and agile, 
        able to be accessed quickly when spikes emerge.
  <bullet> Improve the coordination between emergency and development 
        funding and ensure integrated approaches to shelter that 
        include funding to livelihoods, water, sanitation and hygiene 
        (WASH) and other basic services.
  <bullet> Continue investing in security, support and protection 
        mechanisms as well as basic health and psychosocial services to 
        ensure the protection of women, children, and other vulnerable 
        populations. Working with local women's groups should be a key 
        component of this.
  <bullet> As part of the reconstruction plan, invest significantly in 
        hurricane preparedness and disaster risk reduction.

    None of this negates the need to invest in long-term development, 
but recognizes that reconstruction will take time, and immediate needs 
will have to be addressed both for humanitarian reasons and to avert 
further crises that may impair recovery. It recognizes as well that 
meeting these needs requires more of an integrated relief and 
development approach.
                         improving aid delivery
    Much attention has been given to the shortcomings of the aid effort 
in Haiti and in particular to the challenges faced in coordination. 
While all of us would agree that coordination could be improved, it 
DOES take place and Haiti has benefited as a result of the existing 
coordination between the various humanitarian actors. With a government 
that faced monumental challenges, the international community did step 
up and provide needed humanitarian assistance to save the lives of the 
victims and the most vulnerable. In the year following the earthquake, 
for example, international relief activities helped feed more than 4 
million people.
    Nevertheless, building back better will require strong coordination 
among donors, the Haitian Government, the U.N. system, NGOs, and other 
Haitian stakeholders and implementers. Thus far coordination has been 
challenging. On the ground, the scale of the response has actually 
meant more new actors in Haiti that are providing far more services 
than ever before often with short-term funding matched to specific 
sector priorities. Short-term and sector-specific funding inevitably 
leaves gaps. The challenges and requirements of Haiti require NGOs and 
other implementers to make a multiyear commitment, which in turn 
requires long-term funding commitments and resources that are not yet 
secured. In Haiti, basic principles of aid effectiveness and smart 
development need to be applied.
    The U.S. Government and others should:

  <bullet> Ensure reconstruction is Haitian-led and Haitian-owned. A 
        plan that will endure when donor attention goes elsewhere is 
        one that reflects the priorities and involvement of the Haitian 
        Government and people. Donors should support the Haitian 
        Government's efforts to consult its citizens and fund the areas 
        they define.
  <bullet> Provide long term and predictable support. As already 
        described, the task ahead will require a long-term commitment 
        from all stakeholders.
  <bullet> Raise the role, voice and concerns of women in 
        reconstruction and integrate gender across all programs and 
        strategies. About 43 percent of families are headed by women, 
        and yet their contributions and status are too often 
        undervalued. Maternal mortality rates remain high. 
        Reconstruction is an opportunity to address historic imbalances 
        and support a significant part of the Haitian population.
  <bullet> Coordinate aid with other actors. A positive first step has 
        been taken by the Haitian Government in the development of a 
        Haitian reconstruction plan that sets out priorities. Donors 
        need to support these and coordinate with one another to ensure 
        areas are adequately covered. The Haiti NGO Coordination 
        Committee (CCO) has set out a number of recommendations to 
        ensure proper coordination among the Haitian Government, U.N. 
        clusters, INGO community, and others.
      The CCO calls on donors specifically to provide financial support 
        to integrated development and emergency funding that supports 
        relevant Haitian Government institutions; support the 
        functioning of the Tables Sectorielles' Secretariat, based on 
        the government's assessment of needs; and to more 
        systematically include NGOs in their aid coordination, so they 
        are in a better place to align with government priorities, and 
        engage in a meaningful policy dialogue with the Haitian 
        Government and civil society.
   making long-term investments in the government and people of haiti
    Building back better will require long-term investment in key 
areas. Haiti's ability to advance and respond to future crises will 
require investments that address recurrent problems and build the 
country's economic prosperity, human capital, and good governance. The 
Haiti Government's 10-year action plan prioritizes a number of sectors 
that the international community should support. Territorial rebuilding 
in targeted areas; economic rebuilding in sectors that include 
construction, agriculture, and tourism; social rebuilding in health, 
education, food security, and other sectors; and institutional 
rebuilding are all key areas for a comprehensive reconstruction plan. 
But fundamental to achieving all of these is building the capacity of 
the Haitian Government and of the Haitian people.
    The U.S. Government should:

  <bullet> Invest in the long-term capacity of the Haitian Government. 
        Sustained engagement with the Government of Haiti to support 
        its capacity to govern, deliver services, apply the rule of 
        law, and consult its citizens will be necessary to ensure both 
        stability and the basic rights of the Haitian people. The U.S. 
        Government should consider working with other donors and NGOs 
        in a capacity-building project for Haitian civil servants. 
        Building national and local capacity can ensure sustainable 
        solutions.
  <bullet> Support the Haitian people by investing in the social 
        sectors. The U.S. Government and other donors must invest in 
        the Haitian people by investing in their health and education.
      Addressing cholera: Cholera requires a long-term investment in a 
        comprehensive national water and sanitation program that brings 
        safe drinking water and waste disposal to every community. 
        Infrastructure development needs to be accompanied by a 
        behavior change campaign so that every citizen knows how to 
        reduce his/her risk.
      Strengthening the health system: Broader than cholera, 
        investments are needed to build a strong and effective Haitian 
        health ministry and system that is led by the Government of 
        Haiti and able to reach Haitians throughout the country with 
        affordable treatment and care. Harmonizing standards and norms 
        for both public and private providers will be key.
      Strengthening the Ministry of Education: President Martelly has 
        expressed his vision for children by announcing a primary 
        education initiative that would guarantee free primary 
        education. We should allow Haitian children to have what every 
        child in North America takes for granted. The education system 
        should be strengthened with regular teacher training, and 
        standards in education that meet that of other countries in the 
        region. Education not only is fundamental for participating in 
        today's economy but provides a valuable tool for Haitian 
        children to meet their potential.
  <bullet> Support a development model that includes and benefits the 
        poor people of Haiti, ensuring their livelihoods and food 
        security. Economic growth is a necessary but insufficient 
        condition for poverty reduction. The economic model that is 
        pursued in Haiti must empower Haitians and private sector 
        investment must be geared toward that aim.

    In all of this, we must invest in women and youth. Roughly half of 
Haiti's population is under 18 years of age. Supporting their rights, 
investing in their potential, and providing a space for their voice 
will be key to successful reconstruction.
    Those that believe there is a ``quick fix'' to the issues in Haiti 
are mistaken. Anytime we think progress is not fast enough in Haiti, we 
should remind ourselves of our own experience with Hurricane Katrina, 
and how challenging it is to rebuild communities and infrastructure.
    But there are many reasons for optimism:

  <bullet> The resilience of the Haitian people and the potential of 
        Haiti's children;
  <bullet> The resourcefulness of Haitians living abroad who are 
        committed to Haiti's future;
  <bullet> Haiti's proximity to the United States with our strong 
        national interest in seeing the country succeed;
  <bullet> The opportunities presented by unprecedented attention, 
        resources, and international partnerships focused on Haiti; and
  <bullet> The inauguration of President Martelly's new government with 
        an expectation of concerted action.

    Long-term engagement by the administration and Congress will be 
required to ensure Haiti's Government and people receive the support 
they need. With coordinated and energetic leadership from the 
government and civil society of Haiti, perseverance and sustained 
commitment from the Haitian people, and long-term-wise engagement from 
the United States and international community, we can support Haitians 
as they realize their full potential and prosper.
    Thank you for the opportunity to speak today, and I welcome any 
questions you may have.

    Senator Menendez. Well, thank you all for your very 
insightful presentations.
    I think we will start a series of 7-minute rounds based on 
the number of our colleagues who are here, and I will start 
off.
    I am concerned, and I would just like to hear from you. I 
see that President Martelly's nominee for Prime Minister was 
rejected by the Haitian Parliament. I hope the Haitian 
Parliament understands that for us to move forward, we need not 
the politics of the past but the opportunity to move into the 
future. There are some press reports that suggested the 
rejection is far less on the qualifications of the Prime 
Minister nominee versus the politics of it. And that does not 
bode well for investment.
    So I would like to hear about prospects for investment. I 
know that in the 1980s, there was a significant influx of 
investment to create an opportunity to use the entrepreneurship 
and the strong work ethics of the Haitians and that created a 
lot of investments in the production of clothing and sporting 
goods and electronic parts for markets in North America and 
beyond. But then political turmoil of the 1980s and 1990s came 
along after that, and foreign investment declined.
    As members of the diaspora, what do you see in terms of the 
political climate? Do you think that there will still be a 
commitment to invest based upon the promise of the new 
President, or will the current circumstances, if they continue, 
be obstacles?
    Mr. Bernadel. Thank you, Chairman Menendez. We are meeting 
with President Martelly in Miami on Saturday, and members of 
the Haitian diaspora want to convey the same anxieties that you 
just described in terms of seeing what his answer is going to 
be.
    We have just gone through a significant period with the 
Haitian Parliament. They had just voted an amendment to the 
Constitution of 1987 allowing the diaspora to have dual 
nationality so they could come and rejoin the community of 
Haitians. And that particular amendment at the last minute was 
somewhat withdrawn due to technical issues. And this is one of 
the dimensions of the discussion that we plan to have with 
President Martelly on Saturday, to tell him that we need this 
kind of certainty in order for us as members of the diaspora to 
speak on his behalf not only to people from the diaspora but to 
government officials within the United States to give them a 
sense that there is a need to reinvest in Haiti. There is a 
need and there is a true sense that Haiti is open for business. 
We are concerned about the similar aspect in what is happening 
with Haiti.
    We know that there has been government in Haiti that have 
submitted one or two Prime Ministers sometime, and we think 
that this may be more politically determined than just the 
quality of the Prime Minister. So we are going to wait to see 
what exactly the next step for President Martelly is going to 
be taken because we need some sense from him that the diaspora 
and the international community can have some sense that there 
is going to be stability because this is one of the things that 
we need.
    Senator Menendez. Let me ask if any of you have a comment 
on that.
    Mrs. Simon-Barjon. If I may. Actually that reiterates the 
fact that we need to invest money in the private sector because 
if we look at it in the United States, 85 percent of our 
workforce works for small and medium businesses. In Haiti we do 
not have that. So the more we invest in the private sector, the 
more we empower people, the more money people earn, the more 
educated people are. Then they will actually be able to fight 
not violently, fight back against those kind of parliamentary 
shenanigans.
    Senator Menendez. My concern was does that create a bar to 
getting the private sector investment that we want to see, or 
can that be overlooked and still not be a bar?
    And in addition to that, I would ask you all, if I gave you 
a magic wand and I told you give me the three singular--not 
four, not five--the three singular most important things that 
could be done to achieve private investment inside of Haiti, 
what would those three things be?
    Mr. Sassine. If I had a magic wand, I would hit on Daniel 
Rouzier being accepted as Prime Minister. The second would be 
the passage of two very important constitutional amendments 
that did not happen. These are the three things that if they 
happen----
    Senator Menendez. And those two are the citizen----
    Mr. Sassine. The dual citizenship which permits people to 
be able to work for the government and unfortunately who have a 
U.S. passport and they cannot.
    Senator Menendez. And the other amendment?
    Mr. Sassine. The other amendment is one that has to do with 
regulatory reforms on real estate ownership.
    Senator Menendez. Any other suggestions?
    Mr. Bernadel. For my part, there would be an enforcement of 
property rights. As you all know, there are a lot of people 
that do not want to invest in Haiti into the diaspora, and we 
are trying to overcome the resistance. It is because they are 
not sure on any given day what particularly the land tenure is 
going to be.
    The second investment will have to be in education. I know 
that there is a massive plan from IDB to invest in education in 
Haiti, but that education has to be a modern type of education 
not just simply palliative or some kind of lip service. The 
government
has to have a national curriculum. They have to have qualified 
teachers, and they have to have buildings that are adequate in 
order to have that.
    And then the third one is a health issue because in Haiti 
there are a lot of tourists that may not want to come into 
Haiti, people from the Haitian diaspora, because of the fear 
that there may be a widespread possibility of contamination.
    So those are the kind of things that I would address 
because all of them stem directly to create a condition in the 
mind of the people we are trying to influence that Haiti is, in 
fact, open and set for business.
    Senator Menendez. Very good. Thank you.
    Mrs. Simon-Barjon. Well, can I say something, Senator?
    Senator Menendez. Sure.
    Mrs. Simon-Barjon. I think basically that is constantly 
looking for other people to come and fix Haiti's problems. 
Haitian people have the capacity. Illiteracy, I constantly say, 
does not mean stupidity. The people of Haiti know what they 
want.
    This is an agricultural country. Again, we say two-thirds 
of these people are agricultural people. They work the land. 
Time and time again, I think an Oxfam-Quebec survey asked them 
what did they want, what was the most important thing to them, 
and this to the masses, and they said it was local food 
production because they do not want to be subjected to global 
price fluctuations, et cetera.
    So I think to me not addressing that issue is extremely 
important because if these people are, again, able to work, 
create jobs, et cetera, then this is a country that is going to 
be OK because they are going to demand it of their leaders, 
just like we demand it of our leaders.
    Senator Menendez. Senator Cardin.
    Senator Cardin. Well, again, thank you all for your 
testimony. I appreciate it very much.
    I want to start off with a general question as to how 
effective the international aid has been to date. And I 
particularly want to focus on a significant problem within 
Haiti on the division between the wealthy and the poor. There 
are a lot more poor than there are wealthy. I understand that. 
But the income distribution from the economy is very skewed, 
and we would hope that as part of our international assistance 
that we are building a class that will benefit from the economy 
of Haiti.
    So as you respond to the question as to how effective our 
aid has been, I would like to get your prognosis as to whether 
we are assisting in the development of an economy that will be 
sustainable for the majority of the people. Whoever would like 
to start.
    Mr. Bernadel. Yes. I am a member of the IHRC. The IHRC is 
the Interim Haiti Recovery Commission, which is the organ that 
was charged right after the earthquake to be a conduit and a 
facilitator of the aid that was coming from the bilateral 
commissions, bilateral with Haiti. And this particular organ 
was expected to be the one organization which all kind of aid 
will come through and then it would be facilitated and to 
address the gaps that were based upon the national plan of the 
government, something similar to the response that we had with 
the tsunami on Banda Aceh.
    Senator Cardin. And how well are we doing?
    Mr. Bernadel. Right now there are some issues. First of 
all, there is a public relations aspect that from the IHRC is 
suffering because they have not done a great job to go forward 
to explain what it is. And there is the issue of time because 
this is not something that is going to happen in the time that 
the people thought that is allocated. I just came from 
Louisiana, and there are things that are still being fixed.
    Senator Cardin. I understand that. But my question is the 
aid that has been made available to date--are we moving in the 
right direction or are we just institutionalizing the problems 
that were in Haiti prior to the earthquake?
    Mrs. Simon-Barjon. You are institutionalizing the problems 
and reiterating the problems that are in Haiti today. If you 
look at it, sir--let us look at the Bumpers amendments where we 
are basically--Haiti at some point cannot even buy fertilizer. 
They have to buy limited fertilizer. We have actually cut down 
the vast majority of the people, the very bottom of the 
pyramid. These people have to--this is what I said earlier--
they have to actually buy U.S. goods. They do not have a 
choice. These people cannot afford it. They are earning $1 or 
$2 per day.
    We have not done anything toward capacity-building. Of the 
$4 billion that we have sent to Haiti in the past 20 or so 
years, only $163 million has gone toward private sector 
development. And every time I go to Haiti, I hear the same 
thing over and over again from the people, is that we are 
catering to the same small group of people and not addressing 
the needs of the masses.
    Senator Cardin. Let me get the other two responses, and 
then the question will be for those that think we are not 
getting there, what do we need to change.
    Mr. Shaye.
    Mr. Shaye. One thing that you learn very quickly in Haiti 
is that there is more to do than all of the actors there 
together can address. The need is beyond comprehension. The 
agencies, the members of the international community that tend 
to focus more, specialize in specific sectoral areas, and, 
focus geographically will have more effectiveness. Many NGO's, 
even when they are offered money, say no because we do not have 
the bandwidth, the management capacity to take on more of a 
response.
    USAID and its strategy of working in Cap-Haitien, Saint-
Marc, and Port-au-Prince has focused on three economic 
corridors. Some of us would like them to work where we work, 
but the experience in Haiti tells you that by focusing you will 
be more effective. In Haiti, it is almost like working one by 
one, working to put kids back in school, and offering health 
services to more people. The pace at which you can accomplish 
things is very slow.
    NGO's have a large presence. We would like to have a 
smaller presence and have the Haitian Government take on more 
and more of this responsibility. But when you have 80 percent 
of the schools that are private, not private schools like we 
know them in North America, but privately operated by community 
members trying to make sure that children there can receive an 
education, when you have the health service--for example, in 
cholera, the government health service does not have the reach 
to address the need in all communities. So gradually we, the 
international community, have to think of geographic areas and 
ministries where we can help rebuild that capacity.
    Senator Cardin. Well, here is the challenge. We have two 
roles. One was humanitarian to deal with the immediate 
disasters of the people who were displaced. It is my 
observation we have not completed that role yet because there 
are still people in camps and very vulnerable. And then to help 
rebuild an economy that we hope would be able for sustainable 
growth in Haiti, and that means where working people have a 
decent opportunity.
    Mr. Shaye. They are interrelated. Many of the people who 
are in the camps do not want to move until they have a viable 
income source. They need to know that they are going to have an 
income source. They are not going to travel longer distances to 
uncertain jobs. Their kids are going to have to go to school. 
There has to be a health service where they move, and there 
must be security in place. So we know in general why things 
happen slowly, but you need to think about all the moving parts 
that have to be in place. There are complex issues around land 
titles. We have people who know how to build shelters and who 
have the designs to build shelters, but they need a place to do 
it, and the families have to see an economic advantage to move.
    At the same time, just as you said, the entire 
international community, the Haitian civil protection 
authorities, the U.N. are all very concerned about the large 
population living in tents and we know a strong hurricane will 
be catastrophic. But where are they going to go?
    Mr. Sassine. If I may?
    Senator Cardin. Mr. Sassine.
    Mr. Sassine. Everything that has been said is true, 
especially my two colleagues here on my left. But there are 
good things that are happening with the foreign assistance, 
especially with the U.S. assistance especially in the health 
sector. The cholera outbreak was a very big demonstration of, 
when the foreign aid is focused on something, how well it can 
be managed. HIV/AIDS--Haiti is the only underdeveloped country 
where HIV/AIDS is in regression. So this particular aspect has 
received the necessary focus.
    As one who lives in Haiti, I can see that there is a shift 
the last 2 years, even before the earthquake started, 
especially with the HOPE legislation passing and the kind of 
assistance that we are receiving directly for the private 
sector. The Clinton-Bush Fund, for instance, which is looking 
at investing in profitable business ventures, just like a 
regular banking situation. And this is creating more and more 
types of direct--like Regine was saying--direct investment and 
creating wealth with small businesses. They are now being 
regarded as the vehicle that she was mentioning. But the 
machine, of course, like an aircraft carrier turning, is taking 
a little time, but at least today they are looking in the right 
direction.
    Mr. Bernadel. Chairman, if I may.
    Senator Cardin. Briefly.
    Mr. Bernadel. Again, this is one of the reasons why we said 
that there has to be some incentive to attract the diaspora 
into coming back into Haiti. To every milieu that you go to, 
they will tell you the diaspora is going to be the one key 
element. Yet, there is very little that is being done in Haiti 
within the international community to make this come to pass. 
So we recognize the need of the diaspora to be an actor, but no 
one wants to make whatever the condition for that to happen. 
And then we keep postponing the same issue when part of the 
solution is right in front of us.
    Senator Cardin. Thank you. I found that very helpful.
    Senator Menendez. I just have one or two other questions. I 
do not know if Senator Cardin has any more. We will come to a 
conclusion.
    Going back to the educational challenge, Mr. Shaye, I have 
heard what the President wants to do. It is certainly one of 
his top priorities. And I am wondering how he will turn the 
educational effort into a free public education system for 
children in Haiti. Is his plan viable? What needs to happen in 
order to make it so? What is the role of the Inter-American 
Development Bank in helping him achieve it?
    Mr. Shaye. First of all, it is a goal that, as I said 
before, resonates with the Haitian people. The aspiration to 
keep children in school is probably the highest when you do 
focus groups and talk with people in communities or you talk 
with those who are displaced. It is an extremely ambitious 
goal. To make this happen, you have to basically create an 
educational infrastructure. You have to work with the private 
sector that is providing the bulk of education, and conduct 
massive teacher education programs. With the cooperation of 
institutions like the IDB, and the many international NGOs who 
on a regular basis raise resources for education, for areas 
within and outside of the earthquake there is great support for 
education. Most NGOs worked in education before and will work 
in education in the future.
    I think having a goal like this is the right type of goal, 
but we have a long-term plan. What can we do? First of all, we 
need to get a Prime Minister appointed and we have to get the 
government in place. So right now we have the idea but we do 
not have the personnel. But in the first week after President 
Martelly was elected, he convened a meeting with his staff and 
all of the actors that are active in what is called the 
Education Donor Group. He shared his goal. People said the same 
thing I am saying. It is ambitious. But it is the direction 
that Haiti needs to go to develop this in-country capacity 
which can be combined with the capacity of the diaspora. But it 
is a very long-term goal as we know. We work with hundreds of 
schools in Haiti. Other NGO's do the same. It is day-by-day 
work improving the training of teachers, involving the 
community, and now making sure that in every school there is an 
active water and sanitation program so we can do cholera 
prevention right from the get-go because the cholera treatment, 
as I mentioned before, is extremely expensive. We need to 
change behaviors. We need to put in the water and 
infrastructure. A school is a very good place to do that. But 
we have to pace out what we can do and what can be 
accomplished, and it would have to be supported by future 
governments and other donors would also have to provide 
support.
    Senator Menendez. Ms. Barjon, I admire the spirit with 
which you have kept the last remaining sugar mill, as I 
understand it, alive.
    Mrs. Simon-Barjon. Thank you, sir.
    Senator Menendez. I have listened to your comments about 
agriculture development. Is there continued resistance to 
agricultural development by large landowners in Haiti?
    Mrs. Simon-Barjon. Actually not. We have not met any 
resistance at all in the Leogane region because we pay our 
farmers quite simply. As a matter of fact, one of the first 
things we did when we partnered with the Government of Haiti 
for the sugar mill was we increased the revenues of our farmers 
by 50 percent. They went from $8. The government was paying 
them $8 per metric ton, and we now pay them $12 plus all sorts 
of other things like food and supplies, et cetera. So this 
actually shows that a private sector company can actually be 
successful and not only that, make everybody in the region 
successful. We also give them back 10 percent of our net 
profits which is something that, from what I understand, was a 
little bit innovative for Haiti. So they are more or less like 
profit--how do you say that--shareholders. So it can work and 
it can be successful.
    But the beauty of it is that this one sugar mill has the 
capacity to displace about 50 percent of Haiti's imports, and 
that represents about 10 percent of Haiti's annual trade 
deficits. So that's tremendous.
    In addition to that, if you look at the fact that Haiti has 
a consistent energy deficit, the sugar mill can actually 
produce 12 to 15 megawatts of renewable electricity to Haiti. 
And if you have ever been to Haiti, you know electricity is a 
very precious commodity. You do not take it for granted.
    One sugar mill. Imagine if we had two sugar mills like 
that. You were talking about, let us say, the northern 
industrial park that the United States and the IDB are doing. 
If you had two such sugar mills, another one in the north, you 
would be able to displace 100 percent of sugar imports. You 
would be producing 60 megawatts--let us say 30 megawatts of 
electricity. And you would be employing over 60,000 farmers.
    That one sugar mill in Leogane that we are doing--because 
each worker in Haiti pays or cares for eight others. We are 
talking about positively impacting 240,000 people or more.
    Senator Menendez. So what is necessary for agricultural 
expansion to take place?
    Mrs. Simon-Barjon. Money, sir.
    Senator Menendez. That is the answer.
    Mrs. Simon-Barjon. Quite simply. That is why credit is the 
most important thing. I keep repeating myself again. But it is 
so important that we invest in the private sector not just in 
the garment sector but also in agriculture. And I understand. I 
think we also need to look at ourselves. The Bumpers amendment 
is a huge handicap to Haiti, and that is something that, if you 
guys want, you might want to repeal.
    Senator Menendez. And one last question. What is the 
progress in this northern industrial park which I understand is 
a facility for textile manufacturing? I understand it is 
somewhat at a standstill. What needs to be done to remove the 
obstacles that are holding up its development?
    Mr. Sassine. I am not aware of any more obstacles. Right 
now the bids have been picked up by over 21 companies. The bids 
will be open until mid-July and construction should start in 
September. So today the compensation that was holding it back, 
because there were some people exploiting the land--so the 
compensation aspect of it was kind of slow, but that has been 
taken care of.
    Senator Menendez. Good.
    Mr. Sassine. Over 1,200 families have been taken care of.
    Mr. Bernadel. Mr. Chairman, I just want to quickly make a 
point on the education part. First of all, the education in 
Haiti is going to be a 20-year plan, and it is not just 
President Martelly's plan. It was already initiated to 20 years 
in 5-year increments. Twenty years ago, when we did not start 
education in Haiti, we are back to today saying that it is 
going to take us 20 years. At some point we need to get it 
started in 5-year increments.
    The second thing. I run a charter school in the State of 
Florida. And Paul Vallas, who is one of the leaders of 
education in the United States after the Katrina incident, has 
said the same thing, and he is part of the team that is looking 
at rebuilding the education. We need to start investing into it 
just almost similar than the charter school where the 
government subsidizes some schools, but you have to have 
performance building, teacher training, and yes, it is going to 
take time, but it will take money. But ultimately Haiti cannot 
continue to develop with 80 percent of the population to be not 
literate.
    Senator Menendez. Thank you.
    Senator Cardin.
    Senator Cardin. I want to talk a little bit about the 
agriculture and women.
    First, let me say that I plan to contact our people that 
are working in Haiti to do everything we can to impress upon 
the authorities in Haiti to protect the people that are in 
camps who are vulnerable, particularly women and girls. Those 
that have been victimized are victims, and the Haitian 
authorities need to understand that and need to protect the 
vulnerable. I assure you that I will take steps from today's 
hearing to do what we can to protect the women and girls that 
are vulnerable in these circumstances.
    But I want to challenge a little bit your comment, Ms. 
Simon-Barjon, about the agricultural needs being down to money 
because, as I understand Haiti, it is very much dependent upon 
agriculture and women. And women are not fairly treated within 
the country itself. Land rights are not what they should be as 
it relates to women. And fundamental changes are needed. 
Women's rights are human rights, and when we have a chance to 
make some significant changes in a country, gender issues need 
to be on the front burner.
    So I know you did not mean to imply anything other than 
that, believe me. But I wanted to at least put that on the 
table and get your response or others as to what is the current 
status in Haiti as far as the appropriate rights for women and 
their aspirations and their land opportunities and their role 
in agriculture and whether the redevelopment aid that is 
currently being targeted is moving us in the right direction to 
empowering women in Haiti.
    Mrs. Simon-Barjon. We are probably not doing as much as we 
possibly can, just like in any other sector. I can basically 
only speak for what I am basically most familiar with which is 
the Leogane region where both women and men are sugar cane 
cutters, which is a really hard job. But we do notice that most 
of the men head the association. So you are totally right on 
the fact that men are leaders in, let us say, the regional 
sugar cane planters associations, et cetera.
    What we have done is to actually start a smaller group to 
invite women in. But I am in a bit of a conundrum because I do 
not really want to head those groups or those associations 
because I already am running the sugar mill. So there is a 
conflict of interest there. But they do see me and I am a girl 
and I am their boss. So that is a pretty good example.
    Senator Cardin. That is. My guess is that is not the norm.
    Mrs. Simon-Barjon. No; it is not.
    Senator Cardin. My understanding, particularly in the 
agricultural sector in Haiti, is as you go up the chain it is 
hard to find women.
    Mrs. Simon-Barjon. You are absolutely right, but I go to 
the sugarcane fields. I talk to them and I learn a great deal 
and they see me. I am there.
    Senator Cardin. Yes, sir.
    Mr. Shaye. If I could add just one other thing. A few 
months ago, USAID did issue a competitive process on protection 
which would address some of the issues that I touched on 
earlier. Numerous NGOs, consortiums of NGOs, other donors have 
submitted proposals. We do not know who will be awarded the 
proposal, but some of the issues I touched on would be 
addressed by whoever the winning NGO or consortium is. So that 
is part of AID's current proposal process.
    Senator Cardin. And we will follow up on that to make sure 
that is being acted on.
    Yes.
    Mrs. Simon-Barjon. Senator Cardin, I just remembered 
something. We just actually just started a program with Sysco, 
the large food company, in the Plateau de Rochelois which is in 
the mountains in Haiti. And we have actually done the same 
thing. And we have invited women, and we are inviting more and 
more women. We tell them that they are allowed to speak. But it 
is actually a work in progress. I cannot fight tradition. But 
you can basically just show them the way and just be an 
example. But we are making quite a bit of progress because 
before I started, there were no women at all, and I have 
actually invited the men, the planters, and their wives, and 
the people that I--you know, you are allowed to come to 
meetings. So we have done it, but a lot of women do not feel it 
is their place. You cannot force them.
    Senator Cardin. No. You cannot force them. Your example is 
certainly a very visible sign of progress. But there is also 
something about changing the culture of a country for 
opportunity.
    Yes, sir.
    Mr. Sassine. There is something I just want to remind 
everyone. The major problem in Haiti is land tenure. The last 
time we had a disaster was 1762. We were not even Haiti. We 
were a French colony. And today I am hearing a conversation 
from the U.S. Embassy, USAID, and other organizations who are 
now talking about this particular problem, that the land tenure 
and land titling situation--that is one of the major things 
that has to be resolved.
    Senator Cardin. Thank you. I appreciate that.
    Mr. Bernadel. I can say, Senator Cardin, that one of our 
partners in the Haitian diaspora is a lady that runs one of the 
microlending operations in Haiti. And this is an area where 
members of the diaspora, which are filled with women business 
people, that if they were given the opportunity, will for 
certain look at the plight and the condition of women in Haiti. 
But I know they will make an extensive effort to reach out to 
women business people in order to make credit available to 
them. Yes, very small amount of money, but many of those people 
that have access to those loans, if it had not been for those 
microcredit agencies, they probably would not have been able to 
take care of their family. So that is one aspect of reaching 
out to the women that we have.
    Senator Cardin. One of the things these two committees will 
look at--you mentioned somewhere around 1,000 loans that have 
been given out. We will take a look at those, see how many of 
those went to women businesses. I would be interested to see 
that because there is the opportunity to really make some 
advancements. If we find it is just a small percentage, then it 
is disappointing. My guess is that women are approximately 50 
percent of the population.
    Mrs. Simon-Barjon. 52, sir.
    Senator Cardin. 52?
    Mrs. Simon-Barjon. Yes.
    Senator Cardin. 52 percent of the population, similar to 
the United States.
    So we will look to see what type of record is being done 
there, and I will ask my staff to look into those records.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you.
    Well, with that, on behalf of both of us, let me thank you 
all for your presentations. Your insights were very helpful. 
This hearing is one dimension of our challenges and 
opportunities as they relate to Haiti. So we look forward to a 
future opportunity to discuss additional elements.
    The record will be kept open for 3 days for members to ask 
any questions. If you do get a question, we would urge you to 
respond to it as quickly as possible to help us in our 
deliberations.
    And with that, this hearing is adjourned.
    [Whereupon, at 3:27 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


          Prepared Statement of Catholic Relief Services (CRS)

    Catholic Relief Services wishes to thank you very much for your 
ongoing work and personal attention to aid Haitians in rebuilding their 
country, the poorest in the Western Hemisphere, after the devastating 
earthquake that struck on January 12, 2010. Moreover, thank you for 
calling this important hearing on ``Rebuilding Haiti During the 
Martelly Era.'' We want to especially thank Mr. Cardin of Maryland, Mr. 
Menendez of New Jersey, subcommittee chairs on Western Hemisphere, the 
Peace Corps, and the Subcommittee on International Development and 
Foreign Assistance, Economic Affairs, and International Environmental 
Protection, respectively.
    As one of the largest American aid organizations in Haiti, Catholic 
Relief Services is working hand in hand with Haitians to help rebuild 
their country better and stronger. CRS believes that aid agencies must 
strengthen local capacity and foster local leadership so that Haitians 
drive their own recovery and development. CRS works in partnership with 
numerous local organizations, including the Catholic Church in Haiti. 
Some highlights of our programs in Haiti include:

  <bullet> Transitional Shelter Program: CRS and partners (including 
        subgrantees Cordaid and Habitat for Humanity) are producing 
        between 300-400 shelters per week. To date, a total of 6,485 
        shelters have been constructed.
  <bullet> Rubble to Reconstruction: More than 2,500 metric tons of 
        rubble has been recycled through the use of rubble crushing 
        machines supplied by CRS to 14 beneficiary entrepreneurs. These 
        small businesses are employing other earthquake-affected 
        Haitians and, through their efforts, are supplying CRS and 
        others with sand, gravel, and concrete blocks for construction.
  <bullet> Neighborhood Water and Sanitation: CRS staff carried out 
        formative research in target neighborhoods to explore community 
        members' knowledge, beliefs, perceptions, and practices related 
        to water and sanitation. The results are being used to develop 
        strategies for assisting communities to make improvements in 
        their living conditions that will positively affect their 
        health and well-being.
  <bullet> Protection: A total of 1,049 separated or unaccompanied 
        children have been registered and are receiving some form of 
        assistance. Of these children, 400 have been reunited with 
        their families.
  <bullet> Institutional Strengthening Program: As part of this program 
        supported by CRS and the University of Maryland, the University 
        of Notre Dame of Haiti selected six nurses and six doctors to 
        become future faculty members. These health care professionals 
        recently completed training sessions at the University of 
        Maryland. They are continuing their clinical training at 
        selected partner medical training sites in Haiti.

    We request your immediate help with the unresolved problems of 
shelter and emergency and long-term funding for Haiti. It is estimated 
that 680,000 Haitians are currently living in displacement camps. 
Vulnerable people living in overcrowded areas with inadequate shelter 
and surrounded by strangers are at a higher risk of suffering from poor 
health and violence. These populations also have a much harder time 
supporting themselves and providing for their families. Before the 
earthquake, there was a lack of basic primary education and health 
resources for most Haitian people. To further exacerbate these 
conditions, only 50 percent of Haitians had access to clean water. 
Government and civil society institutions are weak and under-resourced 
and, absent a shelter strategy, vulnerable populations, many of who are 
women and young girls, are at risk.

  <bullet> We urge that the U.S. Government's support to Haiti 
        prioritize the needs of the most vulnerable, focus on 
        strengthening Haitian capacity and leadership, and support 
        improved governance of Haitian institutions.
  <bullet> We would like to request that the Office of Foreign Disaster 
        Assistance (OFDA) be supported to carry out life saving support 
        to the people of Haiti, especially in the areas of water, 
        sanitation, and shelter. OFDA was cut by 33 percent in the FY 
        2011 Continuing Resolution. Further cuts severely undermine the 
        people and the programs that many NGOs are trying to implement 
        in support of the Haitian people. We would like to encourage 
        full funding of OFDA's programs in the fiscal year 2012 annual 
        budget. We ask that you protect this humanitarian and poverty 
        focused account that functions to protect thousands of lives in 
        Haiti.
  <bullet> Furthermore, we believe that the support of the United 
        States Government can and should be targeted at some specific 
        priorities for Haiti, including customs clearance delays: the 
        United States and other international Non-Governmental 
        Organizations (NGOs) continue to experience delays of many 
        months to clear imported items that cannot be found on the 
        local market. This includes lumber for the construction and 
        repair of shelters and other infrastructure, medical supplies, 
        communications equipment, and other essential items. Right now, 
        activities are hampered by such delays which make it difficult 
        to implement the programs that are designed to protect lives 
        and livelihoods. We recommend immediate and sustained 
        intervention to help the Government of Haiti resolve the above 
        issues.

    Thank you.
                                 ______
                                 

        Responses of Regine Simon-Barjon to Questions Submitted
                         by Senator Marco Rubio

    Question. What is your assessment of the U.S. Government's strategy 
to engage with and strengthen the Haitian private sector as part of our 
reconstruction assistance?

    Answer. The real secret to removing Haiti from its aid and poverty-
dependency trap is by building and establishing a sizable fiscal base 
via massive productive investments in Haitian private sector. This will 
contribute more to ``helping the Haitian people, help themselves'' on a 
sustainable basis than merely the traditional aid programs.
    The focus should be on four primary sectors: (1) Technical Support 
to the Government of Haiti and its pertinent branches, (2) Agriculture, 
(3) Renewal Energy, (4) Credit Access, which are interrelated.
    These priority sectors can support Haitian productive sectors by 
addressing specific existing indigenous potentials which have the 
ability/capacity to simultaneously impact, in the immediate and the 
long term, more people, as well as the Haitian market economy.
    Many of the project examples in this complementary report to the 
June 23 testimony can also be implemented in conjunction with the 
Inter-American Development Bank (IADB) and/or the International Finance 
Corporation (IFC) or other such institutions. Most projects should be 
able to offer financial sustainability and viability.
                         (1) technical support
    Technical Support, training and assistance in good governance and 
organizational skills at the Haitian executive, parliamentary and 
municipal levels to establish a workable organizational system with the 
requisite expertise and access to information needed within the 
Government of Haiti (GOH).
    This proposed program will include the experienced U.S. and 
Haitian-Americans to serve as technical agents to train and engage 
Haitian civil servants on best governance policies, share expertise and 
organizational skills as well as establish priorities, provide the 
necessary focus to improve United States/Haiti bilateral relations and 
to establish common and practical ground, especially on the political 
and economic fronts.
    This program will also seek to focus, organize, and leverage both 
local and Non-Governmental Organizations' (NGO) assets to better 
contribute to economic development, Haitian economic sustainability. 
The program may also present an instrumental venue in working and 
engaging the Haitian parliament to build bridges and establish vested 
interests and goals.

--U.S. jobs created: 10 to 15
--Haiti jobs created: 150
--Estimated annual costs and operations: US$5,000,000
                            (2) agriculture
    The Haitian Agricultural Sector represents 25 percent of Haiti's 
GDP and employs two-thirds of its workforce. Haiti has 700,000 hectares 
of unused/underutilized lands which can service this sector, contribute 
to food, energy security, and create thousands of jobs. The needs of 
the agricultural sector are:
i. Irrigation and drainage
    The rehabilitation of Haiti's watersheds and rivers, canals and 
drainages systems will reduce the risks of floods which cause annual 
loss of life, crops, and livestock, and will in turn result in improved 
crops' yields and thereby, farmers' income and contribute to improved 
food security.
    This program can easily accompany the ongoing ``Cash for Work'' 
program by: (a) Partnering with NGOs and the GOH, and (b) employing 
workers to rebuild and/or build existing or new canals and repair 
antiquated drainage systems.
    Example: The Province of Leogane, the traditional sugar cane region 
of the country suffers from massive flooding every year. There is 
important ongoing irrigation work being done by an estimated 12 
different NGOs expected to be completed in December 2011. The result in 
theory will be that by the aforementioned date, irrigation (water) will 
be available to 4,000 hectares (ha) of the province of Leogane. 
However, there is still secondary irrigation and drainage work that is 
needed to both secondary canals and to the province's additional 3,000 
ha.
    Leogane's total irrigation canals' length is 90 kilometers (KM) of 
which only 20 km have already been done with concrete. This leaves 70 
km of mud-made canals which need to be rebuilt in order to ensure 
sustainable agriculture.
    In addition, because the cleaning of both the irrigation and 
drainage canals must be done annually, it is imperative to establish 
viable partnerships between the regional farmers and an agroindustrial 
company--in this case BioTek Solutions, Inc./BioTek Haiti--to ensure a 
market for feedstock/sugar cane and the State (via its Ministry of 
Public Works) to ensure infrastructure maintenance and continuance.

--Estimated job creation: 32,000
--Province of Leogane irrigation/drainage cost: US$25,000,000
--Estimated annual maintenance and operations: US$465,000
--Estimated annual return on investment: +US$42,000,000

    The rehabilitation and optimization of Haiti's only operating sugar 
mill, the Darbonne Sugar Mill (at an estimated cost of US$50 million) 
to complement Leogane's existing agricultural/sugar cane acreage will 
provide a return on investment as follows:

  <bullet> The reduction of Haiti's annual sugar imports by a minimum 
        of 26 percent, representing US$30 million depending on 
        fluctuating sugar import price;
  <bullet> The reduction of Haiti's estimated annual trade deficit;
  <bullet> The provision of up to 15 megawatts (MW) of more consistent 
        affordable and accessible electricity provisions to more 
        people;
  <bullet> The potential for new entrepreneurial development as a 
        result of electricity provisions of compost and fertilizer 
        (which in turn increase crops' yields and farmers' income).
ii. Agricultural research and development to include seed bank/
        nurseries
    To select, multiply, and initially distribute at no cost to farmers 
improved, disease resistant seeds and plants which will ensure higher 
yields and result in higher income for farmers. This will also 
contribute to greater food and energy security.
    This project should become economically self-sufficient within 5 
years with farmers earning enough from previous years' crops and 
earnings increase to be able to afford to buy their own seeds to ensure 
profitable crops.
    The program should initially be a partnership between farmers, 
pertinent agroindustrial company(ies) and the Haitian Ministry of 
Agriculture. Initial financial investment to establish an Agricultural 
Research and Development Center to include a seed banks and nursery 
component should be supported financially and technically by the 
pertinent agroindustrial companies and the Haitian Ministry of 
Agriculture with U.S. and/or international support.
    There are currently 20 ill-equipped public Agricultural Research 
and Development Centers in Haiti and an estimated 3 private ones and 2 
new ones in specific agricultural sectors (sugar cane and winter 
vegetables). The United States and/or the international community 
should optimize the capacity of these centers to facilitate and 
expedite agricultural rehabilitation and reforestation.
    It is suggested that U.S. investment in this sector compress the 
above number to 10 AgCenters; and begin with Haiti's Primary 
Agricultural industries (sugar, rice, poultry/egg [for livestock] and 
such as coffee, mangoes, plantains, maize and winter vegetables which 
can serve the U.S. markets as well as contribute to food security 
locally. Dual/multipurpose crops such as jatropha, vertiver will also 
serve to expand existing agroindustrial and agroenergy potential--while 
also contributing to soil conservation, erosion mitigation, and reduce 
the risk of floods if planted along river banks.

--Estimated job creation: 250 Ag professionals
--Estimated cost of rehabilitating 10 Ag Centers and financing private 
    centers: US$5,000,000
--Estimated annual operation costs: US$2,500,000
--Estimated return on investment: increased yields and farmers income, 
    and contribute to food security
iii. Access to fertilizer
    After a brief and unscientific research in this field, the Haitian-
American Chamber of Commerce (U.S.) and BioTek Solutions, Inc./BioTek 
Haiti SA called on three fertilizer/compost and waste to energy 
companies which corroborate the great potential of recycling waste into 
fertilizer, compost, and energy.
    The companies all demonstrated an interest in working in Haiti--DCK 
Worldwide (U.S.), Sequel IRM of Canada and Global Ecology Corporation 
(GECO) all agree that the use of Haiti's capital of Port-au-Prince's 
existing 1,600 metric tons (MT) of waste--which contains 75 percent 
agricultural waste can be made into a viable and profitable business 
with the production of fertilizer, compost, and energy.
    Preliminary studies indicate that Port-au-Prince 1,600 MT of 
Municipal Solid Waste (MSW) stream can produce upward of 12 MW of 
electricity (conservative estimate) as well as compost and fertilizer. 
The conversion and/or the recycling of waste into fertilizer, compost, 
and and/or energy would serve multiple sectors.
    Currently, the Port-au-Prince MSW department is subsidized by the 
State at US$200,000 per month (US$2.4 MM) to collect waste for an 
estimated +3 million people and operates at a US$1.6 million deficit 
annually.

--Estimated job creation: 3,000
--Annual waste collection costs: US$4,000,000
--Estimated waste to energy plant building: US$75,000,000
--Estimated waste to compost/fertilizer plant: US$1,200,000
--Estimated annual return on investment: US$16 to 20 million (depending 
    on retail cost of fertilizer and compost)

    This sector presents an ideal opportunity for the establishment of 
Public-Private Partnerships and the inclusion of Port-au-Prince's 10 
private waste collection companies to better work and collaborate with 
the MSW Department--which does not provide the incentive of tipping 
fees as is the norm in the United States. Addressing this sector would 
ensure a return on investment which establish a financially self-
sufficient MSW department, as well as include the following:

  <bullet> The ability of the Port-au-Prince MSW department to pay for 
        waste collection services (estimated at US$4MM);
  <bullet> The provision of adequate municipal solid waste (MSW) 
        collection services for all of Port-au-Prince's citizens and 
        visitors;
  <bullet> Reduced potential for the spread of disease with a cleaner 
        environment;
  <bullet> Potential creation for an estimated 3,000 jobs;
  <bullet> The increase of more consistent accessible and affordable 
        energy provisions.
                          (3) renewable energy
    Renewable energy production is feasible by making use of existing 
indigenous products and assets such as sugar cane and other dual 
purpose crops such as jatropha, moringa, and vertiver--can serve as 
capacity-building for existing industries. These crops can create both 
agricultural and industrial jobs.
    The conversion of Port-au-Prince's 1,600 metric tons of municipal 
solid waste into energy can contribute to job creation and toward 
establishing viable entrepreneurship opportunities in Haiti--makes use 
of indigenous or existing assets such as waste, including Municipal 
Solid Waste to produce and yield a natural fertilizer with 10 times the 
nutrient content of composting, according to Sequel IRM of Canada. This 
results in the reduction of the use of fossil fuel fertilizers (which 
Haitians can ill afford). The expansion of this existing sector will 
serve multipurposes:

          i. Reforestation;
          ii. Soil conservation and flood mitigation with the planting 
        of specific crops on river banks (i.e., jatropha, moringa, 
        vertiver which can also produce bio-oil (bio-fuel);
          iii. New entrepreneurial initiatives and job creation.
           (4) credit access should be affordable and include
                      an agricultural credit bank
    To meet this challenge to private sector development, the United 
States and Haiti can establish and implement a Development Bank and/or 
Haiti Enterprise Fund.
    The Haiti Enterprise Fund can be underwritten by a capital 
commitment from the USG, its investments and loans rolled over and 
provide increasing leverage beyond the amount initially invested. 
Through its activities at the microeconomic level, the Haiti Enterprise 
Fund can contribute to an improved business climate and create an 
improved ecosystem for investing and lending. This demonstration effect 
would also provide assurances for the local banks of the risks and 
opportunities in SME lending and attract foreign strategic and 
financial investors, all of which would contribute significantly to 
reducing the high local interest rates.
    The Dominican Republic's Development Bank successfully raised funds 
in part by using the USDA's U.S. Export Credit Guarantee Programs (GSM-
102 and GSM-103). A similar initiative in Haiti could pump up to US$2 
billion into the Haitian economy (figures based on current imports). 
The capital raised could then be invested in the public and private 
sector development by such Bank's professional management, who should 
operate independently of government control, but subject to public 
oversight and sound corporate governance.

--Estimated program startup: US$250 million (in authorization)

    Question. From the private sectors' perspective, can you identify 
three initiatives that the Martelly administration can realistically 
take at relatively low cost and in a short period of time to 
significantly improve the business and investment climate in Haiti?
    The listed sectors/programs below would immediately serve the 
Haitian private sector as well as SMEs and contribute toward building 
the foundation for economic development with the implementation of:

          (1) The Darbonne Sugar Mill Project, to include the 
        rehabilitation of the Leogane regional watershed, irrigation 
        and drainage systems;
          (2) Suggested expansion of the Cash for Work Program for the 
        provision of improved waste collection services in the Port-au-
        Prince metropolitan regions resulting in Public-Private 
        Partnerships and a self-sufficient waste collection department 
        via the conversion of waste to compost, fertilizer, energy;
          (3) Improved Access to Private Sector Capital via an 
        Enterprise Fund and/or a Development Bank which should include 
        an agricultural credit component.

--Estimated program costs: US$250 million

    Question. How would you quantify the job creating impact of these 
measures?
                         (1) agro-energy sector
    i. The Darbonne Sugar Mill Project will create an estimated up to 
32,000 jobs. Another potential project should include the building of 
another sugar mill in the North Cap-Haitien region for both sugar and 
energy production to service that region's planned Industrial Park and 
tourism developments. The planned US$300 million Cap-Haitien Industrial 
Park will host a 25 megawatt electricity plant.
    A sugar mill as opposed to the planned/suggested diesel plant will 
better serve the community and Haiti as a whole by completely 
eliminating sugar imports (in conjunction with the Darbonne Sugar Mill) 
and employ an additional 32,000 farmers in that industry.
    ii. Waste collection--which is a great challenge in Haiti 
especially in the metropolitan regions of Port-au-Prince and Cap-
Haitien--can create 5,000 to 6,000 jobs. An estimated 3,000 jobs waste 
collection jobs can be created in the Port-au-Prince region alone, and 
additional jobs in entrepreneurial activities such as recycling, waste 
conversion into compost, fertilizer and waste to energy, thereby 
producing needed electricity and other fuels while also making the 
pertinent departments financially viable as opposed to the current 
status which registers consistent deficits.
           (2) improved access to capital and debt financing
    i. The Enterprise Fund would provide a ``holistic'' approach to 
rebuilding Haiti's private sector and policies and practices conducive 
to Haitian private sector development. Its Board and Management of 
seasoned investment professionals would develop and implement strategy 
to jump-start Haitian private business development through equity 
investments, loans, and technical assistance directly to Haitian SMEs.
    If the experiences of the Enterprise Funds in Central and Eastern 
Europe (CEE) are any guide, the Haiti Enterprise Fund would likely 
create viable, sustainable micro- and small-business lending 
facilities, commercial banks, mortgage lenders, leasing companies and 
the like as well as make direct equity investments strategically in 
catalytic businesses. In doing so, these precursor funds financed well 
over 100,000 local businesses and created many more jobs. The Haiti 
Enterprise Fund could be expected to create in the range of 50,000-
100,000 jobs in viable private businesses financed by the Fund.

    Question. Regarding the Darbonne Project, have you sought support 
from the IHRC?

    Answer. Yes.

    Question. If so, what factors are impacting or would impact prompt 
response from the IHRC?

    Answer. The lack of capital or funding greatly impacts projects' 
implementation. The fact remains that the IHRC does not have ready 
funding and funding can only be dispersed when available or when donors 
have met or honored their pledges.
    In addition, Haitian entrepreneurs are greatly limited by the 
overall lack of access to investment capital investments. Large 
projects with large budgets must seek additional seed and/or investment 
funding from the Inter-American Development Bank and/or the 
International Finance Corporation (IFC) or other Institutions in order 
to meet the criteria for the minimum [investor/entrepreneur] seed 
funding requirements.

    Question. What has been your experience as an entrepreneur in 
working with the IHRC?

    Answer. The IHRC has been helpful and its staff has shared much of 
its time and expertise.

    Question. How emblematic are these experiences of the situation 
affecting the larger business community in Haiti?

    Answer. Most Haitian entrepreneurs and business people do not have 
access to the IHRC and therefore cannot benefit from advice from that 
body.
    This is one of the primary reasons why the Haitian-American Chamber 
of Commerce (U.S.) initiated the U.S./Haiti Technical Team to better 
serve and liaise with the IHRC and other such organizations to promote 
pertinent programs and share information, leverage assets, and meet and 
match potential partners who can build and/or expand business capacity 
that will contribute to job creation and economic development.

    Question. How well do U.S. foreign assistance programs work in 
reinvigorating private sector interest in Haiti?

    Answer. There are 2 separate issues to be addressed in this regard:
    (1) U.S. Foreign Assistance does not address nor invest in the 
sectors which can present the most benefit and greatest impact to the 
Haitian economy. U.S. assistance tends to reinforce AID dependency 
rather than promote Haitian economic self-sufficiency.
    (2) Though, the Martelly administration has signaled its intention 
of leading the transition from the country's traditional commerce to 
production, including attracting foreign investment necessary for such 
needed development--such initiatives must include and reach out to 
potential Haitian-American diaspora investors and Haiti's 
entrepreneurial class or SMEs which represent 80 to 95 percent of 
Haitian businesses.
    In addition, programs and incentives must be accompanied by 
tangibles such as a available credit and equity capital from an 
Enterprise Fund and/or a Development Bank to assist in funding 
entrepreneurial development and to build capacity--thus multiplying 
businesses and creating jobs as well as result in increasing tax 
revenues for the State. This cannot be easily accomplished through 
traditional assistance programs, but requires the independently managed 
approach of seasoned investment professionals, free of bureaucratic 
constraints, but subject to public oversight, as is illustrated in the 
proven model employed by the highly successful Enterprise Funds in the 
CEE region.
    (3) An exclusion of the Bumpers Act for Haiti only.
    (4) Continued support and incentives for the expansion of the 
Apparel/Garment sector.
    (5) The inclusion for aid, assistance and funding to Haiti's 
Agricultural Breadbaskets: the Artibonite Valley and the Plains of the 
Province of Leogane for agricultural cultivation and production for 
food and energy security--as well as incentives and programs to 
encourage U.S. agricultural companies to expand and replicate 
operations in Haiti. This will create both U.S. and Haitian jobs, 
expand and secure U.S. and Haitian markets.
                                 ______
                                 

 Responses of Gary Shaye to Questions Submitted by Senator Marco Rubio

    Question. In your view, what are Haiti's most pressing humanitarian 
needs at the moment, and to the extent that you can tell, in the next 6 
months?

    Answer. In terms of the most pressing humanitarian issues, I would 
like to put forward the following issues, all of which have been 
discussed among the international nongovernmental (INGO) community. It 
is important to say that all of these are complex issues, and the 
ability to resolve them may well depend on how quickly the new 
government takes over leadership of the government ministries.
    The purpose of raising these issues is to focus the response on 
those areas that are viewed most critical by the many NGOs that are 
working at the community level. While Save the Children addresses many 
of these issues in our own programs, our knowledge of the context and--
more importantly--regular communications and information from other 
NGOs, including the 15 members of the International NGO Steering 
Committee, made it possible for us to respond to this question.
(1) Resettlement and forced evictions
    Forced evictions have taken place over the last year and continue 
taking place with no clear action to prevent and respond to them.
    A new relocation plan for six camps has been designed by the 
Haitian Government. This is a very positive step, but articulation 
between this and the other 1,000 camps is unclear.
    Timelines and availability of alternative solutions also need to be 
defined.
    There needs to be greater clarity on the funding that will be 
required to support a holistic resettlement strategy.
    Discussions need to take place with partners on how the relocation 
plan will be implemented.
    As resettlement is directly related to the potential for 
livelihoods there needs to be greater clarity about the livelihoods 
options for those that will be relocating.
(2) Water, Sanitation, and Hygiene (WASH) and cholera
    There has been an increase in the number of localized cholera 
outbreaks (e.g., Carrefour, Leogane, Petit Goave/Grand Goave), which is 
likely related to the start of the rainy season, and flooding in a 
number of areas with poor sanitation. In other communities where 
prevention activities have decreased there are concerns that we could 
see another spike in cases.
    In some cases the planned closure of cholera treatment clinics and 
units (CTCs and CTUs) will limit the capacity for response, especially 
in remote areas where the next nearest facility could be hours away, 
often not enough time for a patient to receive the necessary treatment 
and care.
    Funding for shelter construction does not systematically allow for 
an integrated approach to WASH and shelter and that is just what is 
required to reduce the spread of cholera.
    The absence of safe waste management and treatment systems impacts 
the ability to control cholera and more generally to ensure proper 
treatment of waste.
    There are also challenges in the timely coordination of collection 
of epidemiological data between local and national levels.
    Distributions of hygiene materials have yet to take place within a 
context where actors are downsizing their operations. As a result of 
the downsizing there are potential shortages in staff available for 
distributions.
(3) Protection/child protection/social protection
    Coordination of Sexual- and Gender-Based-Violence (SGBV) 
interventions amongst humanitarian actors and between humanitarian and 
government structures remains patchy.
    There are financial barriers to access to health care for the whole 
population, in a context where increased prices translate into 
decreased expenditures on health care.
    The displaced situation impacts the likelihood of children being 
abandoned, separated, economically or sexually exploited and 
potentially trafficked.
(4) Prices increase/food crisis
    Increased food prices result in decreased expenditures related to 
food, health, education, and increased debt in a context of the 
conclusion of Cash for Work interventions and an increase in global and 
national oil prices.
    For vulnerable households, further price increases are likely to 
result in further decreased expenditures dedicated to food, both in 
quality and in quantity.

    Question. Could you share your experience in engaging the 
Ministries of Commerce and Education and the Central Bank in the 
implementation of your Business Development Services and Micro finance 
Grant program for Haitian small businesses?

    Answer. Save the Children has not had sufficient dealings with 
these entities to provide a useful answer to this question and would 
refer the Senator to our colleague organization, Oxfam, which has had 
more experience with these bureaus. A contact name at Oxfam will be 
provided by our office in Washington.
                                 ______
                                 

      Responses of Maj. Joseph Bernadel to Questions Submitted by
                          Senator Marco Rubio

    Question. Can you describe two diaspora-led or supported projects 
that you have advocated for at the Interim Haiti Reconstruction 
Commission?

    Answer. Vilaj Vilaj is a very well-designed project and very 
responsive to the diverse needs of the Haitian community. I met a few 
times Mr. Mervil to advise and support them in the different stages of 
submission and review with the relevant authorities. Vilaj Vilaj intend 
to rebuild villages in Haiti. The first one is planned to be built in 
Paillant, in the Nippes department. This first village should 
accommodate around 5,000 people, while its infrastructure should allow 
it to provide enough energy, services, and agriculture to be self-
sufficient. The success of this project lays on citizen participation 
and democratic life, that are essential notions as well as sustainable 
development and self-determination.
    Project Grace is a comprehensive plan for sanitation and potable 
water for Haiti, based on a unique kiosk-based technology and would 
reach 2,000,000 residents outside the Port-au-Prince zone. The kiosks 
could be rapidly deployed and have a life span of 15 years. This plan 
will serve to provide sanitation and potable water while providing jobs 
and contributing to the local economy and will also be a clear and 
concrete demonstration to the world that Haiti is in the process of 
bettering the living conditions of its populace. The project is based 
on science (assuring protection against Giardia lamblia and 
Cryptosporidium, two parasites prevalent in Haiti as well as bacterial 
contamination), can readily be deployed, is aligned with cultural 
sensibilities, and is a cost-effective way to provide a solution for 
extremely pressing needs.
    Other projects that I have advocated for/discussed/provided context 
and administrative direction include Ville D'Espoir (a new development 
at Saint Marc), The Haitian League Lakou Network, Association des 
Cultivateurs du Nord et du Nord'Est (Nonprofit Farmers' Association), 
FurnitureOrigins-Ayiti, Coalition for Sustainable Trade in Haiti, and 
Art Creation Foundation For Children expansion. In addition, countless 
number of other organization both diaspora led and supported have been 
provided innumerable hours of advice and counsel in their quest for 
Project Submission to the IHRC.

    Question. How effective is the IHRC in coordinating and responding 
to private sector projects for reconstruction?

    Answer. IHRC has various systems in place including an entire 
project review process that is undertaken by the director of projects 
in consultation with the team and the GOH. IHRC has also a donor 
liaison officer who works closely with the key donors and the private 
sector to make sure that the IHRC gives private sector projects the 
necessary attention.

    Question. Can you describe your experiences engaging with the donor 
community to secure funding for and approval of projects?

    Answer. IHRC has a process in place and as a Board member, my 
function is to deliberate and provide advice on projects over $10 
million reviewed by the Team and the GOH. Board members do not engage 
with the donor community to secure funding for an approval of any 
specific projects. As the Representative of the Haitian diaspora, I am 
a nonvoting member of the Board.

    Question. One of the IHRC's goals was to serve as a strong 
accountability model to future Haitian governments.

  <bullet> How would you rate the work of the Performance and 
        Accountability Office in tracking project benchmarks?

    Answer. The PAO has already put in place reports on all existing 
projects, this reporting being RBM (results based management) oriented, 
hence clearly presenting results and related achievements and 
challenges to project implementation. The reporting also provides for 
comprehensive financial information, thus enabling transparent and 
proper evaluation of projects by stakeholders, third parties and the 
public. The PAO has put in place a progressive approach to project 
monitoring.

  <bullet> How effective is the online system for Haitian organizations 
        to monitor foreign assistance donations and distribution?

    Answer. At the onset, many complained constantly about the 
difficulties of interacting with the system. Over time, the system has 
improved although it continues to have a number of areas needing 
technical review.

                                  <all>

</pre></body></html>
